  DEPARTMENT OF HOMELAND SECURITY

        Officeof
      Office   of Inspector
                  Inspector General
                              General


      Review of the Transportation Security 

    Administration (TSA) Collection of Aviation 

              Security Service Fees 





               Office of Audits

OIG-06-35                             May 2006
                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528




                                              May 19, 2006


                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report assesses the strengths and weaknesses of the Transportation Security Administration’s
collection of passenger security and air carrier infrastructure fee payments. It is based on interviews
with employees and officials of relevant agencies and institutions, direct observations, and a review
of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this report
will result in more effective, efficient, and economical operations. We express our appreciation to all
of those who contributed to the preparation of this report.




                                              Richard L. Skinner 

                                              Inspector General 

Table of Contents/Abbreviations 


Executive Summary ...............................................................................................................................1 


Background ............................................................................................................................................3 

      Passenger Civil Aviation Security Service Fee (Passenger Security Fee).................................3 

      Aviation Security Infrastructure Fee (ASIF) .............................................................................4 


Results of Audit .....................................................................................................................................5 


     TSA Monitoring Controls and Oversight of Passenger Security Fees ...........................................5 

       Recommendations....................................................................................................................12 

       Management Comments and OIG Analysis ............................................................................12 


     Accuracy of CY 2000 Passenger and Property Screening Costs
     Reported by the Air Carriers..........................................................................................................14 

        Recommendations....................................................................................................................26 

        Management Comments and OIG Analysis ............................................................................27 


Appendices
     Appendix A:                 Purpose, Scope, and Methodology...................................................................29 

     Appendix B:                 Management’s Comments to the Draft Report ................................................33 

     Appendix C:                 Chronology of Events – Passenger Security Fee and ASIF.............................39 

     Appendix D:                 General Ledger and Remittance Testing – Passenger Security Fee ................41 

     Appendix E:                 Passenger Ticket Fee Sales Channels – Passenger Security Fee .....................43 

     Appendix F:                 Docket Number 10 Examples – Passenger Security Fee .................................44 

     Appendix G:                 Results of Review at 13 National Airports - ASIF ..........................................46 

     Appendix H:                 Review of Costs Paid to Passenger and Property Screening Contractors 

                                 During CY 2000...............................................................................................51 

     Appendix I:                 TSA Monitoring Procedures – Passenger Security Fee and ASIF ..................53 

     Appendix J:                 Major Contributors to This Report .................................................................54 

     Appendix K:                 Report Distribution ..........................................................................................55  

Table of Contents/Abbreviations 


Abbreviations
  ASIF          Aviation Security Infrastructure Fee
  ATA           Air Transport Association
  ATSA          Aviation and Transportation Security Act
  CBP           U.S. Customs and Border Protection
  CFR           Code of Federal Regulations
  CPA           Certified Public Accountant
  CY            Calendar Year
  DMS           Docket Management System
  DOT           Department of Transportation
  FY            Fiscal Year
  GAO           Government Accountability Office
  GSC           Ground Security Coordinator
  LEO           Law Enforcement Officer
  OIG           Office of Inspector General
  TSA           Transportation Security Administration
                                                                                                        Audit
OIG
Department of Homeland Security
                                                                                                        Report
Office of Inspector General

Executive Summary
                            The Aviation and Transportation Security Act (ATSA), Public Law 107-71,
                            established passenger and air carrier1 security fees to reimburse Transportation
                            Security Administration (TSA) for its costs of providing air passenger and
                            property security services at the nation’s airports. ATSA required TSA to
                            impose a uniform passenger civil aviation security service fee (passenger
                            security fee) on passengers of domestic and foreign air carriers whose flights
                            originated in the United States. ATSA also allowed TSA to impose an
                            Aviation Security Infrastructure Fee (ASIF)2 on air carriers. During fiscal year
                            (FY) 2004, TSA collected $1.6 billion in passenger security fees and $283
                            million in ASIF.

                            We evaluated TSA monitoring controls and oversight of passenger security
                            fees to determine if the air carriers adequately identified, collected, and
                            remitted these fees to TSA. At the request of TSA, we also evaluated CY 2000
                            passenger and property screening expenses reported by air carriers to
                            determine the accuracy of the costs reported and if the costing methodologies
                            used by these air carriers provided a fair and reasonable basis for computing
                            the air carriers’ ASIF costs to TSA. See Appendix A of this report for
                            additional details on the purpose, scope, and methodology of the audit.

                            For passenger security fees, TSA had not developed adequate controls and had
                            not conducted audits to oversee the accuracy of the air carriers’ collection and
                            remittance practices until late 2004. As a result, TSA did not know that the
                            three air carriers reviewed did not identify, collect, and remit $2.7 million in
                            fees for the period covered during the audit. We recommend that TSA
                            (i) collect the $2.7 million in unpaid fee amounts identified in this report and
                            validate that all air carriers not covered by this audit have accurately collected
                            and remitted all passenger security fees, (ii) increase the number of annual
                            audits, and (iii) enforce its interim final rule on future tickets.




1
  Although “airline” is the normal term used by the general public, this report uses the term “air carrier” as established in

ATSA. 

2
  49 C.F.R. Parts 1510 “Imposition and Collection of Passenger Civil Aviation Security Service Fees” and 1511

“Aviation Security Infrastructure Fees and Assumption of Civil Security Functions and Responsibilities”


                               Review of the TSA Collection of Aviation Security Service Fees


                                                           Page 1 

                          For the CY 2000 passenger and property screening expenses, serious
                          problems existed with data accuracy, integrity, and reliability. For example,
                          expenses reported to TSA in the air carriers’ Appendix A “Calendar Year
                          2000 Costs Paid for Passenger and Property Screening” 3 excluded footnoted
                          items totaling $9.2 million4. Of this amount, $4.8 million5 represented the
                          expenses of two sampled air carriers for indirect costs related to law
                          enforcement and rent charges. (Five other air carriers outside our sample
                          excluded law enforcement and rent charges totaling $4.5 million.) TSA
                          became aware of air carrier disagreements regarding the costs to be reported
                          and of overall data integrity and reliability problems in 2002 when it began
                          receiving Appendix A submissions. While TSA required air carriers to submit
                          independent audits of the Appendix A submissions, those audits generally
                          resulted in auditors being unable to validate the reliability of the submissions.

                          Based on our audit work, we estimate that unremitted ASIF amounts from
                          program inception to March 2005, including the air carrier disputed footnoted
                          $9.2 million in Appendix A, totaled approximately $49 million. During our
                          audit, the Government Accountability Office (GAO), as mandated by the 2005
                          Homeland Security Appropriation Act, initiated a review to evaluate the
                          overall reasonableness of the $319 million6 ASIF funds used by TSA as the
                          maximum reimbursement from the air carriers. Their report7 estimated that
                          ASIF collections should be between $425 million and $471 million. TSA
                          agreed to consider GAO’s analysis and estimates in determining the limitation
                          on aggregate air carrier security infrastructure fees. Our report is consistent
                          with GAO’s findings and highlights similar concerns with the integrity and
                          reliability of the CY 2000 expenses reported by the air carriers in FY 2002.

                          We are recommending that TSA (i) resolve outstanding issues raised by the
                          air carriers or otherwise referenced in this report; (ii) determine a fair and
                          reasonable aggregate ASIF amount based on the resolution of outstanding air
                          carrier issues, the results of this audit, and GAO’s analyses and estimates, and
                          collect fees where applicable; (iii) establish guidelines to determine the per air
                          carrier ASIF amount; and (iv) initiate enforcement actions against air carriers
                          that fail to remit the ASIF amounts mandated by ATSA.

                          See Appendix B for a complete text of management’s response to the draft
                          report.

3
  Appendix A is a document developed by TSA that required air carriers to identify passenger and property screening

cost for CY 2000. 

4
  During our September 15, 2005 exit conference, TSA informed us that one air carrier recently increased its footnoted 

amount by $40,000 thus making the total footnoted amount $9,270,149. 

5
  Reported as footnotes to the Appendix A. 

6
  The $319 million represented the sum of all Appendix A documents submitted by air carriers in operation in CY 2000. 

This amount served as the aggregate of ASIF to be reimbursed to TSA by the air carrier industry.

7
  Review of the Air Carriers’ Year 2000 Passenger and Property Screening Costs”, issued April 18, 2005


                              Review of the TSA Collection of Aviation Security Service Fees


                                                         Page 2 

Background
                            On November 19, 2001, Congress enacted ATSA, Public Law 107-71,
                            creating TSA and requiring it to assume responsibility for security screening
                            at commercial airports in the United States. To pay for costs of providing civil
                            aviation security services, ATSA required TSA to impose uniform security
                            service fees on passengers enplaning on flights originating from United States
                            airports and at the discretion of TSA, impose the ASIF on domestic and
                            foreign air carriers who previously paid for security services at United States
                            airports during CY 2000. See Appendix C for a chronology of events relating
                            to both fees.

           Passenger Civil Aviation Security Service Fee (Passenger Security Fee)
                            On December 31, 2001, based on ATSA as codified in Title 498, TSA issued
                            an interim final rule requiring air carriers to impose a $2.50 per enplanement
                            security service fee on passengers of flights originating from United States
                            airports. The interim final rule required domestic air carriers and foreign air
                            carriers to collect passenger security fees on air transportation sold on or after
                            February 1, 2002. TSA established the maximum fee as $5.00 or two
                            enplanements per one-way trip and $10.00 or four enplanements per round
                            trip. The passenger security fee also applied to passengers using frequent flyer
                            awards for air transportation, but not to other non-revenue passengers such as
                            air carrier personnel.

                            The interim final rule implemented ATSA requirements that all air carriers
                            remit the total fees imposed during each month to TSA by the last calendar
                            day of the following month. The rule made air carriers responsible for paying
                            fees imposed on, but not collected from, passengers with its monthly
                            remittance to TSA. The rule also allowed air carriers to retain any interest
                            accrued on the principal between the collection and remittance but prohibited
                            the air carriers from retaining any portion of the principal to offset the costs of
                            collecting, handling, or remitting the passenger security fees.

                            TSA’s rule required air carriers to establish and maintain accounting systems
                            to account for passenger security fees imposed, collected, refunded, and
                            remitted and to identify the airports where the passengers enplaned. TSA also
                            required that air carriers collecting passenger security fees from more than
                            50,000 passengers annually provide for annual audits of passenger security fee
                            accounts and activities by an independent certified public accountant (CPA).
                            Further, TSA required that such audits opine on the fairness and
                            reasonableness of the air carriers’ procedures for collecting, holding, and

8
    49 Code of Federal Regulations (CFR), Part 1510,

                               Review of the TSA Collection of Aviation Security Service Fees


                                                          Page 3 

                           remitting the passenger security fees and address whether the quarterly reports
                           fairly present the net transactions in the passenger security fee accounts.

                           On January 25, 2002, Docket TSA-2001-11120-10 (Docket 10)9 provided
                           further guidance on how to assess the passenger security fee for one-way trips
                           and round-trips based on hypothetical travel itineraries submitted by the Air
                           Transport Association (ATA) in Docket 6, dated January 8, 2002. In response
                           to Docket 10, ATA stated in Docket 32, dated March 1, 2002, that ATA and
                           its 26 air carrier members believed that the definitions and limitations in the
                           interim final rule were inconsistent with ATSA. Additionally, they believed
                           ATSA and the interim final rule did not support the conclusions in Docket 10.
                           While ATA requested further discussions with TSA regarding this issue, no
                           such discussions have been held and TSA has not issued a final rule. During
                           our exit conference in September 2005, TSA officials told the OIG they do not
                           intend to issue a final rule until more audits are completed. TSA officials also
                           stated they are waiting for more audits to be completed so that they can
                           address all identified problems in the final rule. For details on passenger
                           security fee assessment differences between the Docket 10 guidance and air
                           carriers’ practices, see Appendix F. These differences directly affected the
                           results of this report because we used Docket 10 as the governing criteria.

                           In FY 2003, 174 air carriers collected and remitted about $1.2 billion in
                           passenger security fees. This amount excluded fees that would have been
                           applicable from June 1, 2003 through September 30, 2003 during a
                           Congressionally-mandated fee suspension period. In FY 2004, 177 air carriers
                           collected and remitted passenger security fees of over $1.6 billion.

         Aviation Security Infrastructure Fee (ASIF)
                           To the extent that the passenger security fees were insufficient to pay for civil
                           aviation security services, ATSA authorized TSA to impose an infrastructure
                           fee on domestic and foreign air carriers. Per 49 CFR Part 1511, TSA imposed
                           the ASIF on air carriers engaged in air transportation effective February 18,
                           2002. ATSA limited the ASIF amount for each fiscal year to the aggregate
                           amount of passengers and property screening costs air carriers paid in
                           calendar year CY 2000. To determine the cost of passengers and property
                           screening in CY 2000, TSA required all air carriers who paid for these
                           screening costs to complete and submit an Appendix A by May 18, 2002.
                           TSA also required the air carriers to submit independent audits of those
                           submissions by July 1, 2002, but later extended the deadline to
                           December 31, 2002.


9
  A docket is an official public record, which can give guidance about proposed and final regulations. For the passenger
fee the prefix is 11120 and for ASIF the prefix is 11334. Hereafter, dockets will only be referred to by their short form
name, i.e. Docket 10 or 6 etc.

                              Review of the TSA Collection of Aviation Security Service Fees


                                                         Page 4 

                Since February 2002, each air carrier paid its ASIF cost based on its
                respective CY 2000 passenger and property screening cost information.
                However, because the per air carrier fee limit through FY 2004 was based on
                each air carrier’s screening costs in CY 2000, air carriers that did not engage
                in air transportation in CY 2000 were not subject to the ASIF until 2005.
                Beginning FY 2005, ATSA allowed TSA to determine the per air carrier fee
                based on the air carrier’s respective market share or any other appropriate
                measurement for each air carrier, while still limiting the total ASIF to the
                aggregate amount of passenger and property screening costs in CY 2000. On
                October 1, 2004, TSA notified air carriers that the ASIF amount previously
                imposed on each air carrier would continue until further notice. As of March
                2005, TSA had not reevaluated the per air carrier fees. TSA officials stated
                during our September 2005 exit conference that they were waiting for our
                audit report results before continuing with their analysis of ASIF distribution.
                They further stated they received 16 different proposals regarding “market
                share” distribution from the air carriers.

                TSA required air carriers to pay the CY 2000 ASIF amounts in monthly
                increments of 8.333 percent, due the last calendar day of each month for the
                prior month’s collected fees. In FY 2003, 167 air carriers paid an ASIF to
                TSA in excess of $253 million. As a result of the temporary fee suspension
                period, this amount excluded fees that would have been applicable from
                June 1, 2003 to September 30, 2003. In FY 2004, 148 air carriers paid an
                ASIF of over $283 million.


Results of Audit

     TSA Monitoring Controls and Oversight of Passenger Security Fees

                TSA did not receive all of the passenger security fees due from the air carriers
                because it had not developed adequate controls and, until late 2004, had not
                conducted audits to oversee the accuracy of the air carriers’ collection and
                remittance practices. TSA monitored air carrier payments, but its oversight
                did not include reviews or audits of the payments to ensure they were accurate
                and in compliance with TSA regulations. While TSA’s monitoring and
                oversight practices consisted primarily of spreadsheet type databases that
                identified the date and dollar amount of air carrier payments, it had no
                documentation indicating that it reviewed the payments for accuracy and
                completeness. As a result, TSA did not know that the large, medium, and
                small air carriers reviewed during the audit had not identified, collected, and
                remitted $2.7 million in passenger security fees for the period we reviewed.
                Increased audit oversight would result in increased collections and decreased
                government funding of passenger and property screening costs. During our


                   Review of the TSA Collection of Aviation Security Service Fees


                                              Page 5 

                           September 15, 2005 exit conference, TSA officials stated that 12 audits had
                           been completed between late 2004 and July 2005.

                           The $2.7 million underpayment identified above did not represent the full
                           passenger security fee period because the large air carrier only had 6 months
                           of data available instead of the 21 months of data reviewed for the medium
                           and small air carriers. However, the 6 months of data resulted in over
                           $1.7 million for the large air carrier of the $2.7 million total underpayment.
                           During discussions with Customs and Border Protection officials10 and air
                           carrier personnel, we determined that results from audits of other similar fees
                           using 6 months of data are projected over the year and collected from the air
                           carrier. Using the agreed upon method would result in the large air carrier’s
                           underpayment rising from $1.7 million to over $3.5 million11. Appendix A of
                           this report provides details of our audit methodology. For the medium and
                           small air carriers, error rates and projection calculations covered 21 months
                           worth of data.

                           Air Carrier Implementation of TSA Guidance

                           The three air carriers reviewed did not implement Docket 10 guidelines for
                           determining the amount of passenger security fees to be collected, resulting in
                           under collections of $911 thousand. In addition, while auditing three different
                           air carriers for our ASIF review, we processed Docket 10 travel itineraries in
                           their ticket reservation systems and concluded that they were also in non
                           compliance. Although we did not review tickets and flight segments for these
                           latter three air carriers, we concluded that lack of implementation of the
                           Docket 10 was an industry-wide problem related to the reservation systems.
                           For example, the SABRE and APOLLO reservation systems, the primary
                           reservation systems used for U.S. domestic travel, were not programmed to
                           identify passenger security fees based on segment stopovers. If the Docket 10
                           error rate identified for the three air carriers reviewed remained the same for
                           all air carriers, TSA could be losing $7 million in fee remittances annually.12

                           According to air carriers officials, Docket 10 and TSA guidance were unclear,
                           conflicted with other guidance, or were not mandatory. Therefore the air
                           carriers did not modify their ticket reservation systems to meet the Docket 10
                           requirements. However, TSA specifically responded to air carrier industry
                           questions on how to determine the amount of passenger security fees to be
                           collected prior to the February 2002 implementation, leaving sufficient time
10
   Customs and Border Protection personnel perform audits of similar fees. 

11
   Based on the requirement to maintain records for 5 years and TSA’s authority to retroactively collect all fees, 

collections would be increased to cover over a 3-year period. Therefore, we estimate that the large carrier underpayment 

totals at least $10.5 million.

12
   The $7 million is not included as part of the actual underpayment reported herein. It merely shows the potential impact

of not implementing Docket 10 assuming the error rate determined during the audit is consistent throughout the air 

carrier industry. 


                              Review of the TSA Collection of Aviation Security Service Fees


                                                         Page 6 

                           for the air carriers to modify their reservation systems. TSA did not detect that
                           the air carriers had not implemented Docket 10 because it did not audit the
                           fees imposed, collected, refunded, or remitted by the air carriers to identify
                           instances of non-compliance or the system-wide problem with ticket
                           reservation systems.

                           The following paragraphs discuss the chronology of TSA guidance on
                           passenger security fees.

                           TSA published an interim final rule in the Federal Register on December 31,
                           2001. Additional guidance was published in the Department of Transportation
                           (DOT) 13 Docket Management System (DMS) under document number TSA
                           2001-11120. While the interim final rule capped the fee at $2.50 per
                           enplanement, up to $5.00 per one-way trip and $10.00 per round trip, it did
                           not give specific guidance regarding passengers who had two or more one-
                           way trips or round-trips on one travel itinerary. The rule only stated that a
                           “round trip” was one where the flight terminates at the origin point and a “one
                           way” trip is any trip that is not a round trip.

                           On January 8, 2002, ATA, representing its 26 member air carriers, asked DOT
                           for guidance on “one-way trip” and “round trip” travel itineraries. ATA’s
                           letter, Docket 6, stated that ATA members and global distribution systems
                           (computer reservation systems) needed help in understanding how to program
                           their systems to collect the fees in time to meet the February 2002
                           implementation date. The ATA letter also provided nine hypothetical travel
                           itineraries and asked the DOT to identify the applicable security fee for each
                           itinerary. That letter referred to previous ATA correspondence to DOT
                           (December 12, 2001) wherein ATA suggested that the “one way” definition14
                           commonly used by the air carrier industry would increase the amount of fees
                           collected and submitted to TSA.15

                           On January 25, 2002, under DMS Docket 10, DOT provided clarification to
                           ATA regarding the terms “one-way trip” and “round trip” and posted this
                           information on its web site. DOT stated that the interim final rule (December
                           2001) defined a round trip as a trip that terminates at the origin point and a
                           one-way trip is defined as any trip that is not a round trip. DOT addressed all
                           nine of ATA’s hypothetical travel itineraries and gave ATA two specific
                           examples where it was possible for a passenger to have multiple one-way trips
                           or round-trips on one travel itinerary. This would result in the passenger
13
   DOT was the parent organization for TSA until March 1, 2003. TSA became a part of DHS when DHS was formally
established on that date.
14
   A “one way trip” is continuous travel from a point to another point during which a stopover does not occur. A
“stopover is a break in travel of more than 4 hours between two domestic flights or 12 hours between a domestic flight
and an international flight or two international flights.
15
   TSA stated in response to the discussion draft report that this type of change would have to occur in the Final Rule not
as an interpretation in the docket. TSA added that they will consider ATA’s position in the Final Rule.

                               Review of the TSA Collection of Aviation Security Service Fees


                                                          Page 7 

paying more than the standard $5.00 for a one-way trip and $10.00 for a
round-trip. Appendix F provides examples from Docket 10 where fees would
increase based on selected itineraries.

On March 1, 2002, under Docket 32, ATA informed DOT that the definitions
and limitations contained in the Docket 10 were inconsistent with ATSA.
Further, ATA asserted that ATSA and the December 2001 interim final rule
did not support the Docket 10 guidance provided on January 25, 2002. While
ATA asked to meet with DOT officials to discuss this issue, TSA officials
stated the meetings were never held because they believed Docket 10
adequately covered ATA’s concerns. However, we believe that ATA did
have a legitimate open issue since the Interim Final Rule did not cover the
4-hour rule (see footnote 13).

A TSA Office of Revenue official stated that guidance supplementing the
interim final rule and provided through the DMS is legally enforceable and
should have been implemented by the air carriers. Officials for two of the
three air carriers informed us that TSA guidance on the subject of “one-way
trips” and “round-trips” was never portrayed as mandatory and a small air
carrier official was unaware of the guidance. Officials from the large and
small air carriers stated that they were not responsible for any uncollected
segments due to Docket 10, would not pay it, and did not agree with OIG’s
underpayment finding in this area. The medium air carrier stated they would
wait for further TSA guidance before deciding on responsibility for paying the
additional fees.

Although DOT guidance to ATA provided examples of how the air carriers
should implement the interim final rule, ATA members never modified their
ticket reservations systems to collect the passenger security fee on segment
stopovers involving one-way and round-trips. Additionally, one significant
issue appears to remain open and requires resolution. Whereas ATA suggested
that TSA use “stopovers” as the criteria for determining “one way” trips and
charging the $2.50 for each segment, DOT uses “terminations” within the
itinerary to determine enplanements and thus the $2.50 fee charge for one way
trips. The difference here is the 4-hour rule for stopovers and defining what a
“termination” means.

Manual Ticket Overrides

Manual ticket override errors at the large and small air carriers resulted in
underpayments to TSA of $869,177. Overrides occurred primarily when ticket
agents, brokers, or wholesalers did not use one of the accepted worldwide air
reservation systems and hand wrote the ticket on an air carrier’s ticket stock
for later update to the reservation system. According to an air carrier official,
manual ticket errors are most likely to occur in smaller foreign countries

   Review of the TSA Collection of Aviation Security Service Fees


                              Page 8 

where no automated link to the reservation system will identify all applicable
taxes and fees for each country. Officials from the two air carriers agreed they
were responsible for the underpayment and that TSA should have been paid.

Involuntary Reroutes

The medium air carrier did not follow TSA’s involuntary reroute regulations
resulting in a $199,392 under collection. Although the small air carrier did not
follow the guidance, we did not find any involuntary reroutes in our sample.
Involuntary reroutes occurred when the air carrier changed a passenger’s
flight itinerary at the last minute for reasons such as bad weather, security, or
mechanical difficulties. The reroute can increase or decrease the number of
passenger segments flown. According to 49 CFR Part 1510.9(b), direct and
foreign air carriers are solely liable to TSA for additional security service fees
imposed because of involuntary enplanement changes to the itinerary.

The small and medium air carriers paid TSA the passenger security fees for
involuntary reroutes based on the original purchased ticket and not on the
number of segment changes. Officials from the medium air carrier stated that
the number of segment increases and deceases generally offset each other and
that TSA regulations do not address segment decreases. The large air carrier
paid TSA for any segment increases and in the case of segment decreases,
allowed TSA to keep the security fee.

Under 49 CFR Part 1510.11, the air carriers only collect the money as trustees
for TSA and hold neither legal nor equitable interest in the passenger security
fee. Further, the law clearly states that air carriers are liable to TSA for the
additional fees resulting from involuntary enplanement changes. Additionally,
TSA has issued guidance on passenger segment decreases for voluntary
reroutes. DMS Docket 59 guidance states that when an air carrier does not
refund the passenger security fee to the ticket purchaser, the fee must be
remitted to or remain with TSA. Therefore, the air carriers have no grounds to
keep fees of any kind that are owed to the ticket purchaser or TSA.

Island Passes

The small air carrier’s incorrect handling of security fees for their “Island
Pass” program resulted in an under collection of $173,413. The air carrier
issued an “Island Pass” from which a passenger could take unlimited flights
between the Hawaiian Islands for a fixed fee. The longest pass was for
1 month and cost about $1,400. However, the air carrier only collected $10.00
covering four flight segments regardless of how many segments were flown
during that period. This allowed the island pass ticket holder to exceed the
number of segments for which the passenger security fee was collected and
paid to TSA. Passengers flew a total of 93,181 island pass segments during

   Review of the TSA Collection of Aviation Security Service Fees


                              Page 9 

our review period, but the air carrier collected and paid TSA for 23,816
segments resulting in 69,365 unpaid segments. Air carrier officials agreed
they had not collected the required passenger security fees and that it was
likely that other air carriers were also selling inter-island passes in the same
manner. Based on our inquiries, it appeared that only two other air carriers
may have issued these type passes. Because this was a unique issue with the
small air carrier, we did not include the “Island Pass” underpayment in our
error rate for projecting the total underpayment amount for the three air
carriers reviewed. The air carrier agreed with our computation and stated they
would pay TSA accordingly. During the audit, the air carrier informed us they
no longer offer the “Island Pass” program, therefore, the additional collections
only cover 2002 to 2004.

Foreign Collection

Some foreign countries did not collect passenger security fees resulting in
under collections of $167,474. For example, Guatemala does not enforce
collection of the passenger security fee for tickets sold in Guatemala with
segments originating in the United States. Officials from the large air carrier
stated foreign travel agents could not be compelled to collect the taxes/fees on
behalf of the U.S. government. The official also agreed the air carrier was
responsible of the underpayment.

Other Unpaid Fees

The five areas discussed above total $2,320,682 in unpaid passenger security
fees. We identified an additional $384,738 in unpaid fees (based on flight
segments); however, the air carriers could not specifically categorize or
identify the type of errors that caused the fees not to be collected and remitted
to TSA.




   Review of the TSA Collection of Aviation Security Service Fees


                             Page 10 

                            Passenger Security Fee Summary

                            For the three air carriers reviewed in detail, passenger security fees, when
                            collected, were remitted to TSA. However, those air carriers did not
                            accurately collect all monies due to TSA. In addition, four of the six
                            underpayment categories noted previously appeared to be systemic to the air
                            carrier industry as a whole and likely occur at every air carrier operating
                            domestically in the United States. If the underpayment rates resulting from
                            these collection errors are systemic, annual underpayments to TSA would
                            amount to over $14.5 million. Therefore, TSA needs to provide closer
                            oversight of the air carriers to ensure proper collection and remittance of
                            passenger security fees.

                            According to officials from TSA’s Office of Revenue, they made a request
                            early in the program for additional funding and personnel so that air carrier
                            audits could be completed. However the Office of Revenue did not receive
                            additional personnel, resources, or funding until almost 2 years later to
                            perform audits, and as a result, TSA could not begin to validate the accuracy
                            of the air carriers’ collection and remittance of the fees until late 2004.

                            Despite these shortcomings, TSA took some steps in FY 2004 to improve its
                            oversight. Specifically, TSA began working with U.S. Customs and Border
                            Protection personnel to develop audit plans and perform audits of these fees.
                            The original plan called for three audits in 2004. As of February 2005, four
                            audits have been performed but results have not been provided to TSA. TSA
                            had nine additional audits scheduled in 200516. Although this is a good first
                            effort, TSA’s efforts will not solve the collection problem. At the planned rate
                            of 13 air carrier audits per year, over 13 years will be required to audit each
                            air carrier only once.

                            TSA does not plan to audit each air carrier equally but rather it envisions an
                            audit oversight process based on risk that would include reviewing the
                            passenger security fees of the top 20 air carriers every 2 to 3 years and the
                            remaining air carriers every 5 years. TSA could meet the plan for the top
                            20 air carriers by doing 10 air carriers each year but the rest of the air carriers
                            would rarely, if ever, be audited. Auditing the top 20 air carriers would cover
                            the largest share of the market and is a logical approach based on TSA’s
                            limited resources. However, this does not ensure that another 130 air carriers
                            that provide passenger security fee collections are complying with ATSA and
                            TSA regulations. Due to the ability of TSA to retroactively collect all fees
                            owed, the risk is reduced if the audit is accomplished within the 5-year records
                            retention period.



16
     At the exit conference on September 15, 2005, TSA stated 12 audits were completed by July 2005.

                                Review of the TSA Collection of Aviation Security Service Fees


                                                          Page 11 

       During our September 2005 exit conference, TSA officials indicated that they
       had expected to use our audit report as the means to collect the unremitted
       passenger security fees identified herein. We explained that this
       “performance” audit was not intended to replace the “operational” audits
       conducted by Customs and Border Protection for TSA. We also pointed out
       that our audit findings and recommendations are provided to TSA for action,
       and that we would provide any additional information or documentation
       needed to effect the collection actions that TSA deems appropriate.

Recommendations

       We recommend that the Assistant Secretary for the Transportation Security
       Administration:

       Recommendation #1: Collect the $2.7 million in unpaid passenger security
       fee amounts identified in this report and continue efforts to validate that all air
       carriers not covered by this audit have accurately collected and remitted all
       passenger security fees.

       Recommendation #2: Continue efforts to develop and implement a viable
       plan to perform an increased number of annual passenger security fee audits
       incorporating the issues raised by this audit and any others identified in the
       audits performed by Customs and Border Protection personnel.

       Recommendation #3: Enforce the interim final rule on passenger security
       fees as clarified by Docket 10, and resolve ticket reservation system software
       issues with the airline industry to assure collection and remittance of all
       passenger security fees on future air carrier tickets.


Management Comments and OIG Analysis
       Management Comments to Recommendation #1: TSA concurred and
       stated that action on this recommendation is pending receipt of the OIG
       documentation that would allow it to invoice the carriers for due amounts.
       Absent the information requested, TSA would be forced to undertake repeat
       audits incurring additional costs and delays.

       In extrapolating to the entire industry the OIG findings relative to the reported
       finding on three carriers, TSA noted that the collection efforts exceed over
       99 percent success. TSA indicated it would continue to seek improvements. In
       addition, TSA stated that it has established an audit program with U.S.
       Customs and Border Protection (CBP), as discussed in recommendation 2,
       below, which will assist in this effort.


          Review of the TSA Collection of Aviation Security Service Fees


                                    Page 12 

OIG Comments and Analysis: Actions planned and taken by TSA should
ensure that the air carriers accurately collect and remit all passenger security
fees in the future. Regarding the collection of the $2.7 million in unpaid fees
noted in the recommendation, OIG provided specific information and
documentation on the audited air carriers during the audit and after our exit
conference. Unlike CBP who performs operational audits for TSA, in order to
maintain our independence, OIG does not perform the normal operational
activities of the audited organization. However, to obviate the need for a
separate operational audit at additional costs and delays, OIG will provide
whatever additional supporting documentation from our working paper files
that TSA requires and requests from us to effect collection of the unpaid
passenger security fees. We consider this recommendation resolved but open
until TSA provides us documentation that the $2.7 million in unpaid fees
noted in the finding and recommendation has been collected.

Management Comments to Recommendation # 2: TSA concurred and
stated that since the OIG audit, it has implemented a Memorandum of
Understanding with CBP’s Regulatory Audit Division to provide compliance
audits. TSA has decided that the best use of its resources is to outsource
on-site audit work to CBP. TSA commented that CBP was unable to supply
all the desired audits in FY 2004 due to DHS restructuring (Immigration and
Naturalization Service/Animal and Plant Health Inspection Service auditors),
but it conducted 12 audits in FY 2005 and plans to complete 13 more in
FY 2006. TSA also intends to audit the major carriers every 3 years and other
carriers less frequently due to the expense of conducting such audits. TSA
stated that since audits of air carriers continue to show very high levels of
compliance, there is little risk to the Government as audit findings are applied
retroactively and the air carriers are invoiced for the outstanding amounts.

Management Comments to Recommendation #3: TSA concurred and
stated that it has had further discussions with various air carriers and
associations to better understand any issues that have arisen on implementing
the passenger security fee requirement. TSA indicated that the air carriers
have asked for further clarification and/or future changes on several specific
aspects of the regulation and that TSA is still considering the merits of making
any such changes. TSA stated that it is also awaiting the results of its
passenger security fee audit program to determine whether there are other
changes that it may need to consider but noted that past audits have shown
that discrepancies only affect about 1% of the fees collected. TSA noted that
where appropriate, TSA action has been initiated to collect any outstanding
passenger fees.

OIG Comments and Analysis (Recommendations #2 and #3): Actions
planned and taken by TSA to enhance and expand its compliance audit
function and to clarify outstanding collection issues with the air carriers are

   Review of the TSA Collection of Aviation Security Service Fees


                             Page 13 

           the initial steps to implementing these two recommendations. As stated in
           Recommendation 2, compliance audits performed for TSA by CBP should
           consider the issues raised in this report as well as any other issued raised in
           the compliance audits. Further, while discussions with air carriers have taken
           place in the past, some issues have remained unresolved with the air carriers
           for extended period of time. In addition, while past audits have only identified
           a 1 percent discrepancy in collections, those audits may not have considered
           the systemic issues raised in this report. It is noteworthy that TSA is
           attempting to clarify air carrier issues and decide what regulatory changes if
           any are warranted. However, until such time as these issues are resolved and
           regulations are changed, TSA cannot ensure the proper collection and
           remittance of all passenger security fees.

           Although TSA has expanded and enhanced it compliance audit program, we
           consider Recommendation 2 resolved but open until TSA provides us with
           assurance that it considered the results of this audit in its Memorandum of
           Understanding with CBP. In addition, TSA needs to provide us the results of
           its discussions with air carriers and documentation on the specific actions it
           plans to take or has taken as a result of clarifying the issues raised by those air
           carriers. While resolved, in order for us to close Recommendation 3, TSA
           should provide us specific comments on actions taken to enforce or modify
           the interim final rule and to resolve the reservation system software issue
           discussed in the finding.

Accuracy of CY 2000 Passenger and Property Screening Costs Reported
by the Air Carriers
           The various costing methodologies used by three air carriers did not provide a
           fair and reasonable basis for accurately computing the aggregate ASIF due to
           TSA. When TSA began receiving Appendix A submissions in 2002, it
           became aware of serious air carrier disagreements regarding the costs to be
           reported and of overall problems with the integrity and reliability of the
           passenger and property screening costs. While TSA required air carriers to
           submit independent audits of the Appendix A submissions, those audits
           generally resulted in “no opinion” reports and did little to assist TSA in
           correcting the problems or identifying other means of computing a fair and
           reasonable aggregate ASIF. Further, TSA did not enforce all ATSA
           regulations regarding the identification and remittance of air carrier security
           infrastructure fees.

           By determining a fair and reasonable aggregate ASIF amount and providing
           better oversight and stronger enforcement actions, TSA would increase ASIF
           collections and decrease the amount of government funding needed for
           passenger and property screening.


              Review of the TSA Collection of Aviation Security Service Fees


                                        Page 14 

                              Appendix A

                              Appendix A submissions were plagued with a myriad of problems that
                              hindered the air carriers’ efforts to accurately report their CY 2000 passenger
                              and property security screening costs. These problems are listed below and
                              kept us from determining fair and reasonable Appendix A costs for the three
                              air carriers reviewed in detail.

                                  1. 	 Due to the large number of air carriers, TSA provided the air carriers
                                       broad guidance that allowed them to use their own methodologies to
                                       identify CY 2000 passenger screening costs. However, this led air
                                       carriers to view the guidance as unclear;

                                  2. 	 Air carriers accounting systems could not identify and track passenger
                                       and property screening costs;

                                  3. 	 Air carriers cost methodologies for determining Appendix A expenses
                                       varied significantly;

                                  4. 	 Original invoices at two air carriers were not always available and
                                       invoices at all three air carriers to support Appendix A costs were
                                       often vague and non-descriptive;

                                  5. Passenger-related expenses were shared among air carriers with no
                                     clear audit trail separating passenger processing costs from passenger
                                     and property screening costs;

                                  6. 	 Airport passenger and property screening cost methodologies were not
                                       uniform;

                                  7. 	 Screening contractors’ costs for both passenger and property screening
                                       and other non-screening costs were commingled;

                                  8. 	 Air carriers could not identify specific costs associated with Appendix
                                       A cost categories; and

                                  9. 	 Institutional knowledge shortfalls were prevalent due to job layoffs at
                                       the air carriers, departure of the screening contractors after federalizing
                                       the screening function, and staff turnover at CPA firms and the port
                                       authorities.

                              The above problems highlight why reported Appendix A costs were unreliable
                              and inaccurate and why CPA firms representing over 59 air carriers17 stated
                              they could not opine on the reasonableness of the procedures used to
17
     These 59 air carriers accounted for more than 90 percent of the total industry’s ASIF dollars.

                                 Review of the TSA Collection of Aviation Security Service Fees


                                                            Page 15 

                          determine and remit the fees, as required by ATSA. Further, we noted that
                          26 air carriers did not report on their accounting procedures as required by
                          ATSA, 10 air carriers did not file the Appendix A in a timely manner, and as
                          of February 2005, 6 air carriers had not submitted an Appendix A.18 Based on
                          these “red flags,” TSA sent letters, e-mails, faxes, and made follow-up phone
                          calls in an attempt to ensure the accurate identification and remittance of CY
                          2000 passenger and property screening costs. However, stronger enforcement
                          type actions did not begin to occur until 2004.

                          As discussed in the paragraphs below, our audit encompassed (i) a detailed
                          review of the Appendix A submissions of a large, medium, and small air
                          carrier, (ii) an examination and assessment of costing methodologies and
                          documentation supporting billing to those air carriers by national Airports,
                          (iii) a review of the invoices Passenger and Property Screening Contractors
                          provided to the to the three air carriers, and (iv) an assessment of the
                          documentation that the three Air Carriers used to support Appendix A costs
                          reported to TSA. Our review of Appendix A submissions maintained by TSA
                          identified unresolved footnote disclosures, misapplied TSA guidance, and
                          peculiarities and inconsistencies among air carrier payments.


                          Unresolved Footnote Disclosures

                          Two of the air carriers in our sample and five additional air carriers outside
                          our sample did not include certain passenger and property screening costs,
                          totaling $9,230,149, in their Appendix A totals because they considered these
                          costs unreasonable and duplicative. However, the seven air carriers identified
                          these unremitted costs as footnote disclosures to their Appendix A
                          submissions. TSA never resolved the issue of the unremitted costs related to
                          the footnote disclosures or the fact that most air carriers reported and remitted
                          such costs since program inception while these seven did not. Since program
                          inception through February 2005, the footnoted but unremitted costs for these
                          seven air carriers totaled more than $25 million.

                          Of the $9,230,149, $4,754,889 related to the large and medium air carrier in
                          our sample. These two air carriers argued that TSA had not assumed certain
                          indirect passenger and property screening costs, e.g. law enforcement, rent
                          expenses, program management, and administrative, and therefore, they
                          should not be required to reimburse TSA for costs they still are incurring.
                          Since TSA took over screening services, air carrier officials said that their
                          indirect costs have not decreased but rather increased. Officials from both air
                          carriers stated that many of the costs were duplicative and that ATSA never
                          intended for the air carriers to pay twice for the same service.

18
 Although these 6 air carriers were no longer in operation, an Appendix A for each former air carrier was required by
Docket 19 so that these passenger and property screening costs could be included in the aggregate ASIF total.

                              Review of the TSA Collection of Aviation Security Service Fees


                                                        Page 16 

                         Although the medium air carrier did not pay footnoted costs, it established a
                         trust account to reserve the funds pending a TSA decision on this matter.
                         However, the air carrier’s subsidiary “Express” air carrier paid its footnoted
                         amount from its trust account based on a TSA letter to the medium air carrier
                         requesting payment.

                         ATSA required each domestic and foreign air carrier engaged in air
                         transportation in the United States in CY 2000 to remit monthly to TSA
                         8.333 percent of the total amount the air carrier included in its Appendix A.
                         By not resolving the footnoted costs, the seven air carriers have continued to
                         remit a lesser amount while other air carriers are paying the same type of
                         passenger and baggage screening services each year and have been since
                         inception of the fee. In this regard, more than 140 other air carriers have not
                         footnoted similar indirect passenger and property screening costs but have
                         been remitting these ASIF amounts to TSA. TSA officials stated that over $27
                         million has been collected from these 140 air carriers19for these categories.
                         Without timely resolution of this issue, TSA will have difficulty collecting the
                         footnoted amounts because of the individual air carriers’ and overall
                         industry’s financial difficulties.

                              TSA Guidance Misapplied by Air Carriers

                         As stated previously, TSA provided broad guidance to the air carriers in CY
                         2002 on preparing the Appendix A. That guidance purposely lacked
                         specificity so as to allow the air carriers to use their own methodologies on
                         how to identify and compute passenger and property screening costs. TSA
                         issued Docket 1920 on April 29, 2002 that provided additional guidance
                         relating to use of labor cost, assigning equipment cost, dividing grouped cost
                         etc. While the Appendix A identified 35 cost categories to be reported, the
                         three air carriers we reviewed did not identify costs in a number of categories
                         but, instead, lumped costs together. In some cases, air carrier officials who
                         prepared the Appendix A in CY 2002 differed from those who accounted for
                         the costs in CY 2000. Because the guidance lacked specificity, the nature and
                         amount of passenger and property security costs incurred in CY 2000 were
                         subject to varying interpretations by air carrier officials in CY 2002. Docket
                         19 recognized the possibility of varying interpretations of what constituted
                         Appendix A costs and indicated that TSA would individually contact air
                         carriers if it was apparent that applicable regulations, previous guidance, and
                         the additional guidance in Docket 19 had been misunderstood or misapplied.
                         TSA also indicated it would issue further clarification in the future if needed,


19
  The data was provided by TSA in total as of March 2005. We did not request a breakdown by air carrier.
20
  “Guidance for the Aviation Security Infrastructure Fee: Completing and Submitting Appendix A on Cost Related to
Passenger and Property Screening for Calendar Year 2000.”

                             Review of the TSA Collection of Aviation Security Service Fees


                                                       Page 17 

but did not provide further information. The following examples seem to
indicate that additional guidance was warranted.

The large air carrier identified costs in only 2 of the 35 cost categories, the
medium air carrier identified costs in 9 categories, and the small air carrier
identified costs in 6 categories. For the large and medium air carriers,
Appendix A cost categories with no costs were (i) footnoted as identified but
not paid, (ii) noted as having been added with other categories having costs, or
(iii) left blank without explanation. The small air carrier provided notes to the
Appendix A explaining 4 of the 29 categories that were blank. For example,
the notes for categories related to program management and contract oversight
over third party vendors stated that the air carrier did not maintain detailed
records in CY 2000. The fact that the air carriers grouped or combined
ASIF-related costs into just a few categories, simply left those categories
blank, or did not provide adequate support for the grouped amounts prevented
us from determining the accuracy and reasonableness of reported Appendix A
costs.

Since TSA could not provide specific examples for all possible scenarios on
how to identify and segregate the costs to be reported on the Appendix A, the
air carriers did not clearly understand what and where to report specific
amounts related to passenger and property screening. For the most part, the air
carriers simply combined amounts into one cost category or ignored the cost.
Docket 19 did provide the air carriers additional guidance in areas where costs
were shared or allocated between passenger screening and non-passenger
screening. However, officials from the large air carrier stated they were not
given clear examples of how to identify and segregate expenses. Therefore,
they combined many cost categories on the Appendix A. In this case, the
broad nature of the TSA guidance contributed to our inability to determine
accurate Appendix A costs for this air carrier.

Subsequent to our on-site visit, TSA brought to our attention Docket 19 which
addressed the area of the air carriers’ commingling of costs. Docket 19 was a
response by TSA to ATA’s March 18, 2002 request for clarification on
reporting various Appendix A cost categories. In its letter, Docket 7, ATA
requested clarification by April 18, 2002 or an extension to the May 2002
Appendix A submission requirement. Docket 19 was issued on April 29,
2002, and did not provide for an extension.

The air carriers did not use the guidance provided by Docket 19 because the
guidance was late in coming and did not extend Appendix A submissions after
May 2002. Therefore, the air carrier issue continued to group reportable
Appendix A costs into just a few cost categories. For example, individuals
who performed passenger and property screening duties also performed other
duties not related to passenger and property screening. Duties performed by

   Review of the TSA Collection of Aviation Security Service Fees


                             Page 18 

                           the same individual that were difficult to segregate included exit lane
                           monitors, security program management, contract administration, legal and
                           accounting support, supervisory personnel, law enforcement officers, and
                           ground security coordinators.

                           Officials from the large air carrier also stated that many of their invoiced
                           passenger and property screening costs from the airports, port authorities, and
                           contractors were commingled with non-passenger and property screening
                           costs. As a result, they did not know the exact amount related to passenger and
                           property screening. However, Docket 19 did provide a possible method of
                           allocation. Rent was cited as an example wherein an airport formulated its
                           rental rate on all airport costs21 and then allocated those costs to the air carriers
                           based on their leased space. Since the air carriers received one combined
                           rental bill, it was then left up to the air carriers to declare what portion, if any,
                           would be allocated to the appropriate Appendix A cost category.

                           In our view, the late issuance of Docket 19 (in terms of the Appendix A
                           submission deadline) contributed to the air carriers grouping many of the cost
                           categories on the Appendix A without necessarily considering whether all
                           costs were related to passenger and property screening. Subsequent TSA
                           analysis of Appendix A submissions as stated in Docket 19 could have
                           identified many of the problems associated with the accurate segregation and
                           reporting of passenger and property screening costs.

                                Peculiarities and Inconsistencies in Air Carrier Reporting

                           As highlighted below, TSA identified and we confirmed peculiarities and
                           inconsistent treatment of Appendix A costs reported by various air carriers.

                                • 	 TSA required that the air carriers’ Appendix A identify all direct costs
                                    for real estate utilized in the screening of persons and property. The
                                    three air carriers did not report any real estate costs to TSA. Our
                                    review of the Appendix A submissions of the five air carriers
                                    withholding footnoted costs showed that two additional large air
                                    carriers did not report any direct real estate costs.

                                • 	 ATSA required a Ground Security Coordinator (GSC) for each
                                    domestic and international flight departure. The GSC’s duties are to
                                    review all security related flight functions. GSC costs to be included in
                                    Appendix A included salaries, benefits, retirement, and training. The
                                    air carriers did not consistently report these costs. For example, the
                                    large and small air carriers did not include any costs for this position,
                                    while the medium air carrier identified and paid TSA $7,705 for the
21
  In this example, rental rates could include costs associated with airfield, terminals, maintenance and operation, debt
service costs, established reserve account and capital items.

                               Review of the TSA Collection of Aviation Security Service Fees


                                                         Page 19 

        parent company and $16,891 for the smaller subsidiary. Further, a
        limited review of the TSA universe identified that one large air carrier
        paid $19,950 for GSCs, while another large air carrier paid TSA
        nothing. The TSA database also showed one medium air carrier paid
        $303,438.

   • 	 TSA required the air carriers to identify and remit the cost of law
       enforcement officers (LEO) whose duties related to the screening of
       persons and property. The small air carrier identified and paid $34,164
       while the large and medium air carriers paid nothing. The review of
       the five air carriers that footnoted costs identified two large air carriers
       who also paid nothing.

The examples above again highlight our concerns regarding the reliability of
the passenger and property screening costs reported in the Appendix A.
Additionally, if immediate corrective actions to address the data peculiarities
had been taken less passenger and property screening costs would have gone
unpaid by the air carriers. Further, the air carriers reported some costs to TSA
on an ad-hoc basis with no clear methodology or support on how the costs
were determined or why costs were omitted from the Appendix A. At our exit
conference in September 2005, TSA stated that peculiarities in the data
received early in the process was the reason why independent audits of all
Appendix A submissions were required. However, TSA did not take further
action even after audits came back with “no opinion” on the reliability of the
data submitted by the air carriers.

Review of Air Carriers Records

We audited the records of three air carriers to: (1) determine if they had
accurately reported passenger and property screening costs and properly
remitted the ASIF to TSA and (2) identify costs not correctly reported in the
Appendix A submissions or remitted to TSA as required. The air carriers
misidentified passenger and property screening invoices as non-screening
invoices, did not include all applicable account codes having screening costs,
or simply omitted appropriate costs which in turn kept these costs from being
reported in the Appendix A. We did not include the portion of these amounts
relating to LEOs and rental cost in the calculated amount of errors because we
could not be certain that the those costs did not duplicate amounts reported as
footnote disclosures.

As with other areas already discussed in this report, the air carriers faced
many difficulties in documenting Appendix A costs. Those difficulties are
discussed below.




   Review of the TSA Collection of Aviation Security Service Fees


                             Page 20 

   • 	 As previously stated, (1) TSA guidance on preparing the Appendix A
       was purposely general in nature and was considered unclear by the air
       carriers, (2) air carrier accounting systems did not segregate Appendix
       A costs from non-passenger and property screening costs, and (3) air
       carriers lacked corporate knowledge due to staff departures.

   • 	 The large and medium air carriers lacked detailed accounting records
       that would allow us to identify all screening costs by station and by
       contractor.

   • 	 The large and medium air carriers only provided copies of original
       invoices to audit. We noted specific time frames where no invoices, or
       any other support could be identified for the medium air carrier.

These types of problems prevented us from corroborating air carrier records
with other independent data from the national airports and the private
contractors who performed the screening services.

   Small Air Carrier

The small air carrier underreported Appendix A costs because invoices
relating to these expenses were not correctly identified in any of the air
carrier’s spreadsheets used to support reported Appendix A costs.
The air carrier’s airport stations did not consistently report screening costs.
For example, only 10 of the 23 airports where the small air carrier operated
reported equipment expenses, only 4 airports reported management expenses,
and only 3 airports reported LEO expenses. Additionally, no airports reported
rent expenses, yet the air carrier’s chart of accounts identified almost
$8 million in station rent. The lack of consistency indicated the degree of
subjectivity exercised when air carrier personnel at the airports identified and
reported Appendix A costs and is an indicator that the air carrier did not report
all required costs.

   Medium Air Carrier

The medium air carrier underreported its costs because invoices relating to
Appendix A expenses were not included in the air carrier’s spreadsheets
supporting Appendix A costs.

We reviewed documentation supporting $14,495,106 (70.2 %) of the
$20,641,503 reported on Appendix A, line 1 that identified the passenger and
property screening costs of the private contractors. The review included the air
carrier’s hub airports, the top 26 revenue producing airports, and a majority of
the subsidiary’s airports. We also reviewed supporting documentation from


   Review of the TSA Collection of Aviation Security Service Fees


                             Page 21 

                              their external auditor regarding Appendix A expenses and traced microfiche
                              invoices to weekly billing statements and summary spreadsheets.

                              Inconsistencies existed in the screening costs reported by the air carrier’s airport
                              stations. For example, the air carrier had five passenger and property screening
                              contracts in place with other air carriers to share screening expenses, yet no
                              costs were shown on the Appendix A for these contracts. Also, only 35 of the 88
                              airports where the parent air carrier operated reported equipment expenses and
                              57 of the 106 airports where the Express subsidiary had operations showed
                              equipment expenses.

                                   Large Air Carrier

                              The large air carrier underreported its costs because invoices relating to
                              Appendix A expenses were not correctly identified in the air carrier’s
                              spreadsheets supporting Appendix A costs. Further, other chart of account
                              categories were related to passenger and property screening but were not
                              included.

                              We reviewed documentation supporting $10,421,800 (29.2%) of the
                              $35,717,301 reported on line 1 of the Appendix A. We randomly sampled
                              invoices from 13 airports and 2 large hub airports to determine the reliability of
                              the reported amount. In addition, we randomly sampled transactions totaling
                              $1,001,386 from 10 airports whose chart of accounts, numbers 85 and 86, were
                              not included on line 1 of Appendix A. We selected these accounts because
                              account number 85 and 86 were included at two other airports (San Francisco
                              and JFK) as passenger and property screening costs on line 1. We were not able
                              to review the external auditor’s documentation regarding the air carrier’s
                              Appendix A submission because the audit firm no longer maintained the
                              supporting documentation.

                              The large air carrier was the dominant signatory air carrier at various airports
                              and as such, screening contractors billed them for the services of the whole
                              terminal or airport. The signatory air carrier in turn billed back a portion of the
                              screening services to the secondary air carriers. Our review of the large air
                              carrier’s invoices identified problems with this billing system. For example, at
                              one airport, the contractor billed the large air carrier for services identified only
                              as screening. The large air carrier then reduced its total costs by the amounts
                              allocated to the secondary air carriers using the same terminal or checkpoint.
                              However, the large air carrier’s invoice to a secondary air carrier (the small air
                              carrier in our review) included both screening and facility costs.22 The small air
                              carrier only reported the screening portion of the charge on their Appendix A.
                              Thus, while the large air carrier reduced its Appendix A passenger and property
                              screening costs by the total amount allocated to the secondary air carrier, it did
22
     The secondary air carrier indicated that the facility charges covered gate, ticket counter, and hangar use.

                                  Review of the TSA Collection of Aviation Security Service Fees


                                                            Page 22 

so incorrectly because secondary air carrier charges included facility use costs.
If this large air carrier applied this bill back practice to secondary air carriers at
other airports across the nation, overall screening cost would be understated by
the amounts transferred to these other air carriers that relate to facility charges.

Independent Validation of Reported Passenger and Property Screening
Costs

As a final step, we attempted to validate the amounts reported by the carriers by
reviewing costs paid for services during CY 2000. To perform this work, we
obtained information from entities that provided services to the air carriers.
These entities included the national airports where the air carriers operated, as
well as the passenger and property screening contractors who previously
provided security services.

National Airports

We determined that the three air carriers have collectively understated their
passenger and property screening costs in their Appendix A by about
$6.5 million. The understated costs were related to law enforcement and rent
expenses. This condition occurred because the air carriers (i) were unable to
identify a clear methodology on how to identify these costs, (ii) misidentified
costs in their accounts, and (iii) lacked corporate knowledge from CY 2000 to
accurately identify Appendix A amounts in CY 2002. TSA did not detect the
underreported amounts because it did not have the audit resources to provide
sufficient oversight for the Appendix A submissions. However, TSA realized
the Appendix A submissions were understated in total from the beginning;
however, they did not know by which air carriers and how much.

We audited billing records at the national airports to determine whether all
applicable airport costs were reported in the air carriers’ Appendix A. Many
of these airports billed the air carriers for passenger and property screening
services in different ways using unique criteria. The differing methodologies
and unique criteria contributed to the air carriers’ problems in accurately
identifying and reporting Appendix A costs. See Appendix H for additional
information on individual airport results and on the complexities involved in
determining LEO and rent costs.

    LEO Costs

We concluded that the large air carrier may have underreported LEO costs by
$3,119,026, the medium air carrier may have underreported these costs by
$2,042,135, and the small air carrier may have over-reported LEO costs by
$3,401. Airports used four primary methodologies to bill the air carriers for
LEO expenses. They:

   Review of the TSA Collection of Aviation Security Service Fees


                             Page 23 

   1. 	 Took total LEO expenses and billed the air carriers based on their
        percentage of passenger enplanements at the airport;

   2. 	 Built the LEO costs into the air carriers’ rental rates;

   3. 	 Allocated the costs into the air carriers’ landing fee rates; or

   4. 	 Absorbed the costs and did not directly or indirectly bill the air carriers
        for LEO expenses.

Eight of the 13 airports did bill the air carriers directly or indirectly for
applicable law enforcement costs. The other five airports absorbed these costs
internally.

Regardless of the methodology or allocation process used by the airports, the
air carriers still had to subjectively decide what percentage of the billed LEO
costs was applicable to passenger and property screening. Further, air carriers
needed to estimate applicable LEO costs on an airport-by-airport basis, as we
did, because of differing methodologies and unique criteria used by the
airports. This time consuming and difficult task may have contributed to the
under reported amounts for the medium and large air carriers. The small air
carrier paid a total LEO cost of $34,164 but only operated at 7 of the 13
airports.

TSA guidance regarding the reporting of LEO costs on Appendix A only
indicated that the LEO services be performed in connection with the screening
of persons and property. Since the guidance did not specify physical locations
where LEOs perform these services, the air carrier’s application of TSA
guidance was entirely subjective with no definitive criteria with which to
identify LEO costs. Because of the subjectivity, LEO costs could include the
costs for LEO passenger and property screening performed anywhere in the
terminal, the costs for the rapid response team, or the costs for an LEO
physically assigned to the security checkpoint.

   Rent Costs

Our work at the 13 airports showed that the large, medium, and small air
carriers may have underreported rental expenses by $1,377,185; $27,191; and
$17,999; respectively. While the Appendix A required air carriers to identify
all direct real estate costs utilized for the screening of persons and property,
e.g. security checkpoints, none of the airports broke down rent costs in this
manner. In identifying the underreported amounts noted above, rent
computation methodologies differed from airport to airport and 2 of the 13



   Review of the TSA Collection of Aviation Security Service Fees


                             Page 24 

airports we visited did not directly or indirectly charge the air carriers for rent
for Appendix A purposes.

TSA guidance on identifying Appendix A rent expenses stated that the air
carriers should identify and remit direct real estate costs associated with the
screening of persons and property. Subsequent guidance in Docket 19
recognized the many intricacies and methodologies of how airports bill the air
carriers for Appendix A rent expenses and suggested square footage as one
possible method. We used an allocation methodology similar to what was
described in Docket 19 to determine both real estate and LEO expenses. Using
this methodology resulted in the underreported amounts identified above. We
further determined that the small and large air carriers did not remit any rent
charges to TSA and the medium air carrier identified $142,510 but footnoted
the entire amount as unreasonable and duplicative.

Passenger and Property Screening Contractors

We visited the headquarters of five former passenger and property screening
contractors to compare and reconcile their billing invoices with the invoices
and other data provided by the three air carriers to support Appendix A
amounts. Two contractors did not provide us any invoices to support air
carrier billings; therefore, we performed detailed reviews only at the 3
remaining contractors. We calculated that Appendix A passenger and property
screening costs for the large air carrier may have been understated by
$480,217. This occurred because the air carrier did not correctly associate
some contractor billing records with passenger and property screening costs.
While we did not identify underreported amounts for the medium and small
air carriers, the three contractors lacked the supporting documents we needed
to ensure that all Appendix A costs were actually reported to TSA. See
Appendix H for a complete discussion of the methodology we used and the
limitations that precluded a more exact determination of the amounts paid to
passenger and property screening contractors.

ASIF Summary

The air carriers reviewed have understated their CY 2000 passenger and
property screening costs by at least $9,230,149 in unresolved footnote
disclosures. As reported above, Appendix A submissions were plagued with a
myriad of problems hindering the air carriers from accurately reporting
passenger and property screening costs and our efforts to determine the
reliability and accuracy of the aggregate ASIF amount to be remitted annually
by the air carrier industry to TSA.

Also, TSA identified, and OIG confirmed, many instances of program
non-compliance by the air carriers, including the following:

   Review of the TSA Collection of Aviation Security Service Fees


                             Page 25 

                              • 	 10 air carriers did not timely file an Appendix A,23

                              • 	 6 air carriers still had not filed an Appendix A as of February 2005 and
                                  other Appendix A submissions were inaccurate,

                              • 	 19 air carriers had not obtained CPA opinions on the fairness and
                                  reasonableness of the procedures used for accounting and remitting the
                                  fees as of February 2005, and

                              • 	 7 air carriers refused to remit certain Appendix A costs.

                          In April of 2004, TSA’s Office of Revenue received authority to assign civil
                          monetary penalties to non-compliant air carriers, including penalties for air
                          carriers that have not filed the Appendix A or received the required CPA
                          opinions on their Appendix A submissions. TSA officials indicated a
                          reluctance to use its enforcement authority because of the air carriers’ weak
                          economic conditions, the possibility of prolonged legal proceedings, and their
                          belief that using all other means to ensure compliance is a good government
                          practice. TSA officials indicated that some of the unpaid ASIF costs, e.g.,
                          footnoted LEO and rent expenses, have been considered an “acceptable risk”
                          because these unpaid costs can be collected at a later date.

             Recommendations

                          We recommend that the Assistant Secretary for the Transportation Security
                          Administration:

                          Recommendation #4: Determine a fair and reasonable aggregate ASIF
                          amount and collect the fees envisioned by ATSA, where applicable, based on
                          the results of this audit and GAO’s analysis and estimates.

                          Recommendation #5: Resolve outstanding issues raised by the air carriers,
                          e.g., duplicative costs, or otherwise referenced in this report, e.g., rent
                          methodology, LEO methodology, and inconsistent reporting, if TSA continues
                          to utilize the Appendix A as the basis for aggregate ASIF collections from the
                          air carriers.

                          Recommendation #6: Continue with the determination of the per air carrier
                          ASIF amount based on implementation of Recommendation 4 and comments
                          received from air carriers.


23
  TSA informed us at the exit briefing that they obtained these Appendix A submissions and their respective delinquent
funds, as well as the Appendix A submissions for the 6 air carriers who did not file.

                              Review of the TSA Collection of Aviation Security Service Fees


                                                        Page 26 

      Recommendation #7: Initiate enforcement actions against the seven air
      carriers that fail to remit ASIF amounts mandated by ATSA and other air
      carriers who fail to comply with ATSA and TSA regulations.

Management Comments and OIG Analysis
      Management Comments to Recommendation #4: TSA concurred and
      stated that TSA has recently determined a fair and reasonable aggregate ASIF
      amount and a means of allocating those additional costs among air carriers. In
      taking its decision on the aggregate industry amount subject to collection,
      TSA carefully considered the work reported in the April 16, 2005 GAO
      report. Extended comments are included in Appendix B.

      Management Comments to Recommendation #5: TSA concurred and
      stated that as acknowledged by the OIG in their audit report on page 16, TSA
      purposely provided broad guidance to the air carriers on preparing their
      response to the cost questionnaire (Appendix A). This broad guidance was
      sufficient for approximately one half of the air carriers subject to this fee to
      provide TSA with clean opinions from their independent auditors on the
      completeness of the data they submitted in their cost questionnaire using the
      guidance provided by TSA. The agency continues to rely on the air carrier
      cost questionnaire submissions as the basis for the air carrier fee allocation.
      However, TSA is unable to rely on the completeness of those air carriers’
      questionnaires that were unable to substantiate their cost submissions by
      receiving an unqualified audit opinion. Therefore, TSA has relied on the
      approach initiated by GAO to identify the level of industry-wide understated
      costs and the agency has allocated those costs on the basis of the formula
      described in Recommendation 4 above.

      Management Comments to Recommendation #6: TSA concurred without
      specific comments.

      Management Comments to Recommendation #7: TSA concurred and
      stated that on December 2, 2005, it sent Demand Letters to the seven air
      carriers that had failed to remit ASIF amounts mandated by the regulations
      establishing the Air Carrier Fee. Those air carriers not subject to a bankruptcy
      proceeding have paid or completed a payment agreement that cover all of the
      amounts due to TSA from inception of the fee. Where permissible, TSA is
      working with the Department of Justice to claim amounts due through the
      appropriate bankruptcy court.

      OIG Comments And Analysis (Recommendations #4 through #7):
      The actions planned and taken by TSA meet the intent of the
      recommendations. TSA’s implementation of GAO’s approach to determining
      a fair and reasonable ASIF amount resolves and closes Recommendation 4

         Review of the TSA Collection of Aviation Security Service Fees


                                   Page 27 

and eliminates the requirement to resolve the specific outstanding issues
discussed in Recommendation 5. Although TSA did not specifically comment
on Recommendation 6, its comments to Recommendation 4 are sufficient to
resolve and close this recommendation. Based on the actions taken on
Recommendation 7, we also consider this recommendation resolved and
closed.




  Review of the TSA Collection of Aviation Security Service Fees


                            Page 28 

                              OIG initiated this audit to determine:

                                 1. 	 The accuracy of passenger security fees collection and remittance and
                                      ASIF amounts paid by air carriers to TSA.

                                 2. 	 The adequacy of TSA program controls and controls used by air
                                      carriers to ensure proper payment.

                                 3. Compliance with legislative reporting requirements.

                                 4. 	 Whether the security fees were remitted to TSA timely.

                             In addition we answered the following questions:

                                 1. 	 Are TSA’s controls adequate to ensure that air carriers are accurately
                                      identifying, collecting, and remitting passenger security fees to TSA?

                                 2. 	 Are the air carriers’ reports of CY 2000 passenger and property
                                      screening costs accurate and do they provide a fair and reasonable
                                      basis for computing the air carriers’ ASIF reimbursements to TSA?

                             To gain background and knowledge regarding the collection and remittance of
                             security fees, we reviewed Public Law 107-71, Aviation and Transportation
                             Security Act; applicable Federal Regulations, Register and notices; TSA press
                             releases on security fees; prior federal audits relating to the fees, and various
                             congressional reports and newspaper articles that were applicable.

                             We conducted the audit from February 2004 through February 2005. We
                             initiated the audit at TSA headquarters to identify program policies,
                             procedures, and controls used in monitoring fee payments. We reviewed
                             records from a different large, medium, and small air carrier for each type of
                             fee. For the passenger security fee, we reviewed tickets, accounting records,
                             and other supporting data. For the ASIF review, we reviewed accounting
                             records, CPA audits, air carrier databases, invoices, and other supporting
                             documents. The ASIF review also included a review of invoices, databases,
                             real estate documents, and other supporting documents at 13 airports and 3
                             private security contractor facilities24 to identify and corroborate air carrier
                             expenses incurred during CY 2000. See Appendix D for a complete
                             description of the work performed and results of passenger security fee
                             remittance procedures. Appendix E provides information on how tickets were
                             sold.



24
     Five private security contractors were in our sample and interviewed; however, only 3 provided the listed documents.

                                Review of the TSA Collection of Aviation Security Service Fees


                                                          Page 29 

Appendix A
Purpose, Scope, and Methodology


                           As discussed below, audit fieldwork consisted of three distinct review
                           components: TSA Headquarters, passenger security fees, and the aviation
                           security infrastructure fees.

                           TSA Headquarters. Audit work at TSA Headquarters in Arlington, VA
                           included researching the history of, and obtaining background information on
                           both security fees. We interviewed Office of Revenue personnel to identify
                           TSA guidelines and program policies and procedures used in the collection of
                           the security fees. We reviewed TSA’s database of air carriers responsible for
                           remitting security fees, evaluated TSA’s monitoring practices and controls
                           over the collection and remittance of the fees, and reviewed applicable
                           management and monitoring reports. We also interviewed regulatory audit
                           division personnel at U.S. Customs and Border Protection to gain an
                           understanding of their methodology for auditing air carriers’ collection of
                           international passenger user fees. This methodology was used for the
                           passenger security fee component of this audit and was an agreed upon
                           method with the air carriers reviewed. Lastly, we spoke to U.S. Department of
                           Transportation, Office of Inspector General personnel to identify
                           methodologies used in a previous audit of the Aviation Security Infrastructure
                           Fee.

                           Passenger Security Fees. Audit work was completed at a large, medium, and
                           small air carrier using the following methodology to categorize the air
                           carriers. We judgmentally selected FY 2003 as the base year for our review
                           and determined that 174 air carriers paid nearly $1.1 billion in passenger
                           security fees. We sorted air carrier payments in descending order and selected
                           the top 50 air carriers. Subsequently, we eliminated foreign air carriers and air
                           carriers that paid less than $5 million and stratified the passenger security fee
                           payments of the remaining 16 air carriers using the following criteria: a large
                           air carrier made over $50 million in passenger security fee payments, a
                           medium air carrier made between $10 million and $50 million in payments,
                           and a small air carrier made under $10 million in payments. We then selected
                           one air carrier from each group to review.

                           For the small and medium air carriers, we randomly selected about eight
                           flights per air carrier over a 25-month period.25 However, for the large air
                           carrier, the flights were selected over a 6-month period due to limited records
                           retention. We based our selections on flight origins and destinations to obtain
                           larger volume flights and we excluded the fee suspension period from our
                           review. Generally, we performed a 100 percent review of one flight per
                           CY quarter to determine whether passengers paid the $2.50 passenger security

25
   The review period was from the initial collection of security fees (February 2002) to the beginning of on site audit
fieldwork (February 2004).

                               Review of the TSA Collection of Aviation Security Service Fees


                                                         Page 30 

Appendix A
Purpose, Scope, and Methodology


                           fee based on applicable flight segments. To increase air carrier acceptance of
                           our methodology, each air carrier selected the day in each quarter for the
                           review.26 We identified each flight manifest and disallowed any tickets not
                           sold using the air carriers’ ticket stock.27 We also reviewed tickets for proper
                           payment based on TSA guidance for one-way and round-trips focusing on the
                           number of collected and remitted segments. In total, we examined,
                           2,610 tickets with 6,730 flight segments.

                           Air carriers identified the passenger security fee on each ticket under the code
                           AY. We reviewed ticket itineraries and identified the number and dollar value
                           of AY segments that should have been paid and then added these unpaid
                           segments to the AY fees actually paid. To determine air carrier collection
                           error rates, we first divided the unpaid AY fees by the total AY fees and
                           subtracted this percentage from 100, thus computing the percentage of fees air
                           carriers actually collected. We then divided the total AY fees collected for all
                           flights by this percentage to identify what the air carrier should have collected.
                           This amount resulted in the underpayment. Based on the precedence set by
                           U.S. Customs and Border Protection for its audits of international passenger
                           fees and the acceptance of that audit methodology by the air carrier industry,
                           we projected the error rate against each air carrier’s total AY fee collections
                           for the period reviewed to determine the total underpayment.

                           Aviation Infrastructure Security Fees. Audit work was completed at a
                           different large, medium, and small air carrier using the following
                           methodology to categorize the air carriers. We judgmentally selected FY 2003
                           as the base year for our review and determined that 167 air carriers paid
                           $203.2 million infrastructure security fees. We sorted the air carrier payments
                           in descending order and selected the top 50 air carriers. Subsequently, we
                           eliminated foreign air carriers and judgmentally grouped the remaining 32 air
                           carriers into three categories as follows: a large air carrier had over
                           $15 million in ASIF payments, a medium air carrier paid between $2 million
                           to $15 million, and a small air carrier paid under $2 million. We then selected
                           one air carrier from each group ensuring that the air carriers differed from
                           those chosen for our passenger security fees review. We performed audit work
                           at the 3 air carriers corporate headquarters, at 5 passenger and property
                           screening contractors that provided security services to the air carriers, and at
                           13 national airports where the air carriers operated.

                           Air Carrier Review. We accomplished this portion of the review to identify
                           and assess the supporting documentation behind the ASIF amounts reported

26
   This methodology was similar to the U.S. Customs and Border Protection’s audit methodology for international 

passenger fees that previously had been accepted by the air carriers.

27
   An example of this disallowance would be where a secondary air carrier sold and collected a portion of the ticket on a 

flight operated by a different air carrier. 


                              Review of the TSA Collection of Aviation Security Service Fees


                                                         Page 31 

Appendix A
Purpose, Scope, and Methodology


                    on the Appendix A. The small air carrier provided original invoices and we
                    reviewed almost 100 percent of the invoices supporting Appendix A costs.
                    The medium and large air carriers could not provide original invoices but
                    rather provided photocopies or microfiche copies of invoices. For both air
                    carriers, we took a representative sample of invoices focusing primarily on air
                    carrier costs at large airports and air carrier hubs. For the medium air carrier,
                    we reviewed supporting documentation for about $14.5 million in reported
                    Appendix A costs and for the large air carrier, we reviewed over $10.4 million
                    in documentation.

                    Passenger and Property Screening Contractor Review. To verify that the
                    three air carriers reported all appropriate Appendix A costs, we visited and
                    asked five passenger and property screening contractors to (1) provide
                    supporting documentation for total screening service costs billed during CY
                    2000 to those air carriers, and (2) identify specific screening costs at
                    13 airports included within the scope of this audit. The contractors visited
                    included Cognisa Security (formerly Argenbright) in Atlanta, GA; Globe
                    Aviation in Irving, TX; ICTS Technologies (formerly Huntleigh) in New
                    York, NY and St. Louis, MO; Olympic Security in Tukwila, WA; and
                    Wackenhut Corporation in Palm Beach Gardens, FL.

                    National Airport Review. We performed audit work at 13 national airports to
                    assess how the airports billed the air carriers for passenger and baggage
                    related screening services including costs related to rent, utilities, and law
                    enforcement. The national airports visited were: Ronald Reagan Washington
                    National Airport in Arlington, VA; Dulles National Airport in Dulles, VA;
                    Baltimore Washington International in Linthicum, MD; Logan International
                    Airport in East Boston, MA; Newark International Airport in Newark, NJ;
                    JFK International Airport in Jamaica, NY; Los Angeles International Airport
                    in Los Angeles, CA; LaGuardia International Airport in Flushing, NY;
                    Oakland International Airport in Oakland, CA; Ontario International Airport
                    in Ontario, CA; San Diego International Airport in San Diego, CA; San
                    Francisco International Airport in San Francisco, CA; and San Jose
                    International Airport in San Jose, CA.

                    This audit was conducted under the authority of the Inspector General Act of
                    1978, as amended, and according to Government Auditing Standards issued
                    by the Comptroller General of the United States.




                       Review of the TSA Collection of Aviation Security Service Fees


                                                 Page 32 

Appendix B
Management’s Comments to the Draft Report


X




                      Review of the TSA Collection of Aviation Security Service Fees


                                                Page 33 

Appendix B
Management’s Comments to the Draft Report




                      Review of the TSA Collection of Aviation Security Service Fees


                                                Page 34 

Appendix B
Management’s Comments to the Draft Report


                           TSA Response to OIG Recommendations:
                             “Review of the Transportation Security Administration (TSA)
                                         Collection of Aviation Service Fees”


                    Recommendation 1: Collect the $2.7 million in unpaid passenger security
                    fee amounts identified in this report and continue efforts to validate that
                    all air carriers not covered by this audit have accurately collected and
                    remitted all passenger security fees. (Passenger Fee)

                    TSA concurs. TSA action on this recommendation is pending receipt of the
                    OIG documentation that would allow TSA to invoice the carriers for due
                    amounts. Absent the information requested, TSA would be forced to
                    undertake repeat audits incurring additional costs and delays.

                    In extrapolating to the entire industry the OIG findings relative to the reported
                    finding on three carriers, TSA notes that the collection efforts exceed over 99
                    percent success. TSA will continue to seek improvements. In that regard,
                    TSA has established an audit program with U.S. Customs and Border
                    Protection (CBP), as discussed in recommendation 2, below, which will assist
                    in this effort.


                    Recommendation 2: Continue efforts to develop and implement a viable
                    plan to perform an increased number of annual passenger security fee
                    audits incorporating the issues raised by this audit and any others
                    identified in the audits performed by Customs and Border Protection
                    personnel. (Passenger Fee)

                    TSA concurs. Since the OIG audit began in January 2004, TSA has
                    implemented a Memorandum of Understanding with CBP’s Regulatory Audit
                    Division to provide compliance audits. TSA has decided the best use of
                    resources is to outsource on-site audit work to CBP. While CBP was unable
                    to supply all the desired audits in FY 2004 due to DHS restructuring
                    (INS/APHIS auditors), they have conducted 12 audits in FY 2005 and plan to
                    complete 13 more in FY 2006. TSA intends to audit the major carriers every
                    three years and other carriers less frequently due to the expense of conducting
                    such audits. There is little risk to the Government as audit findings are
                    applied retroactively and the air carriers are invoiced for the outstanding
                    amounts. Audits of air carriers continue to show very high levels of
                    compliance.




                       Review of the TSA Collection of Aviation Security Service Fees


                                                 Page 35 

Appendix B
Management’s Comments to the Draft Report


                    Recommendation 3: Enforce the interim final rule on passenger security
                    fees as clarified by Docket 10, and resolve ticket reservation system
                    software issues with the airline industry to assure collection and
                    remittance of all passenger security fees on future air carrier tickets.
                    (Passenger Fee)

                    TSA concurs. Since the OIG audit began, TSA has had further discussions
                    with various air carriers and associations to better understand any issues that
                    have arisen on implementing the passenger fee. Air carriers have asked for
                    further clarification and/or future changes on several specific aspects of the
                    regulation. TSA is still considering the merits of making any such changes.
                    TSA is also awaiting the results of its passenger fee audit program to
                    determine whether there are other changes that it may need to consider.
                    However, it is important to recognize that TSA’s audits have shown that these
                    discrepancies only affect about 1 percent of the fees collected. Where
                    appropriate, TSA has already initiated action to collect any outstanding
                    passenger fees.


                    Recommendation 4: Determine a fair and reasonable aggregate ASIF
                    amount and collect the fees envisioned by ATSA, where applicable, based
                    on the results of this audit and GAO’s analysis and estimates. (Air
                    Carrier Fee)

                    TSA concurs. TSA has recently determined a fair and reasonable aggregate
                    ASIF amount and a means of allocating those additional costs among air
                    carriers. In taking its decision on the aggregate industry amount subject to
                    collection, TSA carefully considered the work reported in the April 16, 2005
                    GAO report.

                    The Aviation and Transportation Security Act (ATSA) established two
                    aviation fees to fund TSA’s aviation security requirements (49 USC § 44940).
                    One of these fees, the ASIF (49 CFR part 1511), is paid by air carriers and the
                    overall amount is capped by the aggregate of costs paid by all air carriers in
                    CY 2000 for screening passengers and property. The per-carrier limit is
                    capped at the amount expended by that individual air carrier in CY 2000.
                    This cap will remain in effect until TSA revises the per-carrier limit by market
                    share or any other appropriate method (49 USC §§ 44940(a)(2)(B)(ii), (iii)).

                    According to the ATSA requirement that the ASIF be based on each air
                    carrier’s CY 2000 aviation security costs, TSA required each air carrier to
                    complete and submit a cost questionnaire to the agency in May 2002, along
                    with an independent audit of this questionnaire. In the FY 2005 DHS
                    Appropriations Act, Congress required GAO to conduct a review of these

                       Review of the TSA Collection of Aviation Security Service Fees


                                                 Page 36 

Appendix B
Management’s Comments to the Draft Report


                         costs. In the resulting report, GAO concluded that the industry-wide aviation
                         security costs were between $425 and $471 million with a midpoint mark of
                         $448 million, compared with the air carriers’ reported costs totaling $319
                         million, leaving an annual gap of $129 in underreported, uncollected ASIF28.

                         To ensure fairness and consistency in the allocation of the underpayments,
                         TSA first made adjustments for three categories of air carriers: 1) carriers that
                         existed in 2000, but did not report any ASIF costs; 2) carriers that noted ASIF
                         costs, but did not include those costs in their ASIF calculations; and 3) carriers
                         that reported ASIF costs, but no longer operate. TSA made these adjustments
                         to avoid overcharging the air carriers that are currently operating. These three
                         adjustments, subsequent to the GAO report, raise the overall originally
                         reported ASIF to $344 million. Compared to the $448 million reported by
                         GAO, this leaves a $104 million underpayment that must be allocated
                         equitably and in accordance with the law among qualifying air carriers.

                         Using the GAO Report as guidance, TSA has validated an additional $104
                         million in underreported screening costs and has determined an underpayment
                         for each qualifying air carrier beginning January 1, 2005.

                         The FY 2005 DHS Appropriations Act states: “beginning with amounts due in
                         calendar year 2005, if the result of this review is that an air carrier or foreign
                         air carrier has not paid the appropriate fee to the Transportation Security
                         Administration pursuant to section 44940(a)(2) of title 49 United States Code,
                         the Secretary of Homeland Security shall undertake all necessary actions to
                         ensure that such amounts are collected.” On January 3, 2006 TSA sent out a
                         cover letter and invoice to each carrier subject to the underpayment for the
                         period of January 1 through December 31, 2005.

                         The letter also included the additional ASIF liability due for future periods.
                         Beginning with the ASIF due for the month of January 2006, and for every
                         month thereafter, each assessed carrier must remit both the ASIF based on
                         reported costs (required by 49 CFR §§ 1511.5 and 1511.7; and 69 Fed. Reg.
                         58943) and the additional monthly ASIF.


                         Recommendation 5: Resolve outstanding issues raised by the air carriers,
                         e.g. duplicative costs, or otherwise referenced in this report, e.g., rent
                         methodology, LEO methodology, and inconsistent reporting, if TSA
                         continues to utilize the Appendix A as the basis for aggregate ASIF
                         collections from the air carriers. (Air Carrier Fee)

28
  The GAO report “Aviation Fees: Review of Air Carriers’ Year 2000 Passenger and Property Screening Costs” is
available on the TSA website (http://www.tsa.gov/public/display?theme=31).

                            Review of the TSA Collection of Aviation Security Service Fees


                                                      Page 37 

Appendix B
Management’s Comments to the Draft Report




                    TSA concurs. As acknowledged by the OIG in their audit report on page 16,
                    TSA purposely provided broad guidance to the air carriers on preparing their
                    response to the cost questionnaire (Appendix A). This broad guidance was
                    sufficient for approximately one-half of the air carriers subject to this fee to
                    provide TSA with opinions from their independent auditors on the
                    completeness of the data they submitted in their cost questionnaire using the
                    guidance provided by TSA. The agency continues to rely on the air carrier
                    cost questionnaire submissions as the basis for the air carrier fee allocation.
                    However, TSA is unable to rely on the completeness of questionnaires for
                    those air carriers that were unable to substantiate their cost submissions by
                    receiving an unqualified audit opinion. Therefore, TSA has relied on the
                    approach initiated by GAO to identify the level of industry-wide understated
                    costs and the agency has allocated those costs on the basis of the formula
                    described in Audit Finding 4 above.


                    Recommendation 6: Continue with the determination of the per air
                    carrier ASIF amount based on implementation of Recommendations 4
                    and comments received from air carriers. (Air Carrier Fee)

                    TSA concurs.


                    Recommendation 7: Initiate enforcement actions against the seven air
                    carriers that fail to remit ASIF amounts mandated by ATSA and other
                    air carriers who fail to comply with ATSA and TSA regulations. (Air
                    Carrier Fee)

                    TSA concurs. On December 2, 2005, TSA sent Demand Letters to the seven
                    air carriers that had failed to remit ASIF amounts mandated by the regulations
                    establishing the Air Carrier Fee. Those air carriers not subject to a bankruptcy
                    proceeding have paid or completed payment agreements that cover all of the
                    amounts due to TSA from inception of the fee. Where permissible, TSA is
                    working with the Department of Justice to claim amounts due through the
                    appropriate bankruptcy court.




                       Review of the TSA Collection of Aviation Security Service Fees


                                                 Page 38 

Appendix C
Chronology of Events –Passenger Security Fee and ASIF


                    Nov. 19, 2001         Public Law 107-71, Aviation and Transportation
                                          Security Act, created TSA and established passenger
                                          security fee and ASIF requirements.

                    Dec. 31, 2001         TSA issued an interim final rule on Passenger Civil
                                          Aviation Security Service Fees requiring air carriers to
                                          establish and maintain an accounting system to account for
                                          the security fees imposed, collected, refunded, and
                                          remitted.

                    Jan. 8, 2002          ATA requested clarification from DOT regarding passenger
                                          security fee assessments for hypothetical travel itineraries
                                          (Docket 6).

                    Jan. 25, 2002         DOT provided clarification to ATA’s passenger security
                                          fee assessment request (Docket 10).

                    Feb. 1, 2002          TSA required air carriers to start collecting passenger
                                          security fees from this date forward and to remit the fees to
                                          TSA monthly by last calendar day of the following month.

                    Feb. 20, 2002         TSA published interim final rule on Aviation Security
                                          Infrastructure Fee, effective February 18, 2002 and
                                          required that air carriers remit 1/12 of the fees to TSA by
                                          last calendar day of each month.

                    Mar. 1, 2002          ATA requested further discussion regarding DOT’s
                                          January 25, 2002 clarification of passenger security fee
                                          assessments.

                    May 18, 2002          TSA established this date as the deadline for the Appendix
                                          A submissions.

                    Jul. 1, 2002          TSA initially established this date as the deadline for
                                          independent audits of Appendix A submissions.

                    Dec. 31, 2002         TSA extended the final deadline for independent audits of
                                          Appendix A submissions to this date.

                    Jun. 1, 2003 to       Congress suspended both passenger security fee and ASIF
                    Sept. 30, 2003        collections during this 4-month period.

                    Apr. 20, 2004         TSA received authority to impose civil monetary penalties
                                          on air carriers for non-compliance with regulations.

                       Review of the TSA Collection of Aviation Security Service Fees


                                                 Page 39 

Appendix C
Chronology of Events –Passenger Security Fee and ASIF




                    Oct. 1, 2004 	        Effective on this date, ATSA gave TSA authority to
                                          determine a per-air carrier ASIF amount based on each air
                                          carrier’s market share of the industry or any other
                                          reasonable measurement. (Note: As of the end of our
                                          fieldwork, TSA continued assessing ASIF amounts based
                                          on previously imposed fee amounts.)




                       Review of the TSA Collection of Aviation Security Service Fees


                                                 Page 40 

Appendix D
General Ledger and Remittance Testing – Passenger Security Fee


                     We tested the air carriers’ accounting systems to evaluate the reliability of
                     passenger security fee remittance processes and to assess whether the air
                     carriers properly accounted for and remitted to TSA the fees generated from
                     ticket sales. We accomplished these tests by tracing tickets from daily sales
                     reports to general ledger postings. Appendix E provides additional
                     information on how tickets were sold through different sales channels. We
                     determined that the small and large air carriers had adequate accounting
                     systems to track the passenger security fee remittance. However, we could not
                     express an opinion on the medium air carrier’s system because of the manner
                     in which the air carrier accounted for passenger security fees collections.

                     Small Air Carrier. We tested 10 tickets purchased through 8 different sales
                     channels to evaluate the reliability of the air carrier’s general ledger. We
                     traced ticket sales and actual passenger security fee amounts to postings of the
                     fees to the daily and monthly sales reports. We then traced monthly sales
                     report amounts to the journal entries leading to the general ledger. We also
                     evaluated whether the general ledger journal entries and account codes
                     supported the passenger security fee amounts remitted to TSA. We
                     determined that the air carrier remitted all passenger security fees it collected
                     to TSA.

                     Medium Air Carrier. The medium air carrier did not maintain a system that
                     identified each individual ticket sold along with the corresponding passenger
                     security fee. Rather, the air carrier tracked the total number and dollar amount
                     of tickets sold daily and commingled the amounts collected into one large
                     lump sum for that day for each type of sales channel. The individual passenger
                     security fee segments could not be traced back to a particular ticket unless a
                     manual review was conducted for each ticket sold on a particular day.

                     We tracked the passenger security fee from one ticket purchased on a credit
                     card and followed the amount through to the general ledger. However, if there
                     had been refunds in this sales channel, the validity of the test could be
                     questioned as a refund could have affected the ticket in question. As a result,
                     OIG does not express an opinion on the accuracy or reliability of the air
                     carrier’s remittance process. An air carrier official told us that its internal
                     auditor is developing a mapping matrix of the collection process and will test
                     the reliability in the future.

                     Large Air Carrier. At the large air carrier, three tickets were tested through
                     two different sales channels. No problems were identified for the air carrier’s
                     revenue collection system.

                     We evaluated the month end passenger security fee payments from the three
                     air carriers to TSA. Outgoing monthly wire transfers were reviewed at the air

                        Review of the TSA Collection of Aviation Security Service Fees


                                                  Page 41 

Appendix D
General Ledger and Remittance Testing – Passenger Security Fee


                     carriers and compared to incoming wire transfers at TSA for proper payment
                     and timeliness with no problems identified. We did not identify any legislative
                     reporting requirements or timeliness issues that need to be corrected by TSA.




                        Review of the TSA Collection of Aviation Security Service Fees


                                                  Page 42 

Appendix E
Passenger Ticket Fee Sales Channels – Passenger Security Fee


                     We identified that the air carriers in our review used many different types of
                     sales channels to sell tickets. The accurate collection of passenger security
                     fees can be difficult because different air carrier controls for each sales
                     channel. We identified the following primary sales channels during our
                     review.

                     ATAC – “Automated Ticket Agent Checkout”. This sales channel includes
                     tickets sold at airports and city ticket offices, and on the internet.

                     ARC – “Airline Reporting Corporation”. This is the sales channel for all
                     domestic U.S. travel agencies. This channel represents the largest percentage
                     of all tickets sold.

                     BSP– “Bank Settlement Plan”. Many foreign countries use this sales channel.

                     GSA – General Sales Agent and international ticket brokers use this channel.

                     MSTA – “Manual Station”. This channel is generally used by small countries
                     and the ticket can be handwritten for travel into and out of the U.S.

                     MTTA – “Manual Travel Agency”. Small ticket agencies generally use this
                     sales channel.

                     WHOL – This sales channel relates to wholesalers who sell tickets using the
                     air carriers’ ticket stock.

                     BILB – “Billbacks”. This sales channel occurs when an air carrier bills a
                     travel agency or wholesaler after they take the ticket from the passenger upon
                     entering the plane. (Note: The air carrier did not sell the ticket and is not
                     reimbursed until the passenger flies.)




                        Review of the TSA Collection of Aviation Security Service Fees


                                                  Page 43 

Appendix E
Passenger Ticket Fee Sales Channels – Passenger Security Fee


                     In Docket 6, ATA requested guidance on how to assess passenger security
                     fees for one-way trips and roundtrips, based on hypothetical travel itineraries.
                     In Docket 10, DOT assessed the applicable passenger security fees for each
                     travel itinerary. Using travel itineraries proposed in Docket 6, the examples
                     below show how the passenger security fee assessments differed between the
                     Docket 10 criteria and current air carrier industry practices.

                                                            Itinerary A
                     Depart           Arrive
                     Los Angeles      Honolulu
                     Honolulu         Kona (stopover)
                     Kona             Honolulu
                     Honolulu         San Francisco

                     Docket 10
                     This itinerary begins with a passenger enplaning in Los Angeles and again in
                     Honolulu before terminating travel in Kona. Next, the passenger enplanes in
                     Kona and Honolulu, and then terminates travel in San Francisco. Docket 10
                     defines this itinerary as two one-way trips. Because the passenger enplaned
                     twice during each of these one-way trips, a $5.00 fee would be charged for
                     each trip for a total of $10.00. In addition, since the focus of the passenger fee
                     is on “enplanements,” a “stopover” in Kona would not be relevant when
                     calculating the fee amount.

                     Air Carrier Industry Practice
                     This itinerary does not terminate at the origin point of Los Angeles. Thus, this
                     is a one-way trip regardless of stopovers, with four one-way enplanements.
                     Because the passenger fee for a one-way trip is limited to two enplanements,
                     at $2.50 per enplanement, the total fee charged would be $5.00.

                                                            Itinerary B
                     Depart           Arrive

                     JFK              Los Angeles (stopover) 

                     Los Angeles      Kahului (stopover) 

                     Kahului          Kona (stopover) 

                     Kona             Honolulu (stopover)    

                     Honolulu         San Francisco (stopover) 

                     San Francisco    Washington Reagan 


                     Docket 10
                     This itinerary describes a passenger enplaning an aircraft six times with travel
                     terminating each time at airports in the United States that are not co-terminals.

                        Review of the TSA Collection of Aviation Security Service Fees


                                                  Page 44 

Appendix F
Docket Number 10 Examples – Passenger Security Fee


                    Docket 10 defines this itinerary as six one-way trips. Thus, the air carrier
                    would charge a fee of $2.50 for each enplanement for a total of $15.00.

                    Air Carrier Industry Practice
                    This itinerary does not terminate at the origin point of John F. Kennedy.
                    Therefore, it is a one-way trip regardless of stopovers, with six one-way
                    enplanements. Since the passenger fee for a one-way trip is limited to two
                    enplanements, at $2.50 per enplanement, the total fee charged would be $5.00.

                                                           Itinerary C
                    Depart           Arrive
                    Orlando          Pittsburgh (stopover)
                    Pittsburgh       Orlando (stopover)
                    Orlando          Pittsburgh (stopover)
                    Pittsburgh       Orlando (stopover)
                    Orlando          Pittsburgh (stopover)
                    Pittsburgh       Orlando

                    Docket 10
                    This itinerary shows a passenger with travel terminating three times at the
                    origin point, which would be considered three round trips. The passenger
                    enplaned twice during each round trip. Therefore, the air carrier would collect
                    a fee of $5.00 for each round trip for a total of $15.00.

                    Air Carrier Industry Practice
                    This itinerary terminates at the origin point of Orlando. Thus, it would be
                    considered a round trip regardless of stopovers, with six enplanements.
                    Because the passenger fee for a round trip is limited to four enplanements, at
                    $2.50 per enplanement, the total fee charged would be $10.00.




                       Review of the TSA Collection of Aviation Security Service Fees


                                                 Page 45 

Appendix G
Results of Review at 13 National Airports - ASIF


               Small Air Carrier Appendix A Costs and Port Authority Audited Amounts


       Airports                  App. A - Rent          Per Audit       App. A - LEO       Per Audit
       Boston – BOS                    $0                   $0             $6,994            $6,797

       Baltimore – BWI                   $0                 $287             $21,170         $5,146

       Reagan – DCA                     N/A                 N/A                N/A            N/A
       Newark – EWR                     N/A                 N/A                N/A            N/A
       Dulles – IAD                     N/A                 N/A                N/A            N/A
       New York –JFK                    N/A                 N/A                N/A            N/A
       Los Angeles - LAX                 $0                  $0                 $0             $0

       LaGuardia – LGA                   $0                $3,700               $0            $0

       Oakland – OAK                    N/A                 N/A                N/A            N/A
       Ontario – ONT                    N/A                 N/A                N/A            N/A
       San Diego – SAN                   $0                 $199                $0             $0

       San Francisco – SFO               $0               $13,813               $0          $18,820

       San Jose – SJC                   N/A                 N/A                N/A            N/A

       Total                             $0               $17,999            $34,164        $30,763

         N/A – Air Carrier did not use airport.
         Small Air Carrier Results – Rent Underpaid $17,999 LEO Overpaid $3,401
         Total Underpayment $14,598




                         Review of the TSA Collection of Aviation Security Service Fees


                                                   Page 46 

Appendix G
Results of Review at 13 National Airports - ASIF


               Medium Air Carrier Appendix A Costs and Port Authority Audited Amounts


       Airports                 App. A - Rent          Per Audit         App. A - LEO Per Audit
       Boston – BOS                $83,425                 $0                 $0       $122,452
       Baltimore – BWI             $2,447                $2,137               $0        $38,378

       Reagan – DCA                     $0              $32,517                  $0         $155,496
       Newark – EWR                  $325,944          $325,944**                $0        $1,523,280

       Dulles – IAD                    $0                 $5,655                 $0         $9,321
       New York –JFK                   $0                  $0**                  $0           $0
       Los Angeles - LAX             $14,594                $0                   $0           $0
       LaGuardia – LGA               $16,016              $36,000                $0         $83,264

       Oakland – OAK                   $450                $1,147                $0           $0
       Ontario – ONT                 $1,165               $5,396                 $0           $0
       San Diego – SAN                $3,475               $2,840                $0           $0
       San Francisco – SFO              $0                $80,043                $0        $109,944
       San Jose – SJC                $20,398              $3,968                 $0           $0


       Total                        $467,914*            $495,647                $0        $2,042,135

         * Appendix A Rent was footnoted and not actually paid. 

         ** Unable to verify. 

         The rent analysis shows that had they paid the amount, they still would have been short. 

         Medium Air Carrier Results – Rent Underpaid $27,191 LEO Underpaid $2,042,135 

         Total Underpayment $2,069,326 





                         Review of the TSA Collection of Aviation Security Service Fees


                                                   Page 47 

Appendix G
Results of Review at 13 National Airports - ASIF


               Large Air Carrier Appendix A Costs and Port Authority Audited Amounts


       Airports                  App. A - Rent           Per Audit       App. A - LEO       Per Audit
       Boston – BOS                    $0                    $0               $0             $88,828
       Baltimore – BWI                 $0                  $3,297             $0             $59,091

       Reagan – DCA                       $0               $25,608               $0          $122,033

       Newark – EWR                       $0                $0**                 $0          $317,030
       Dulles – IAD                       $0              $143,786               $0          $349,614
       New York –JFK                      $0                $0**                 $0          $611,959
       Los Angeles - LAX                  $0                 $0                  $0             $0
       LaGuardia – LGA                    $0               $75,000               $0          $216,685

       Oakland – OAK                      $0              $11,736                $0             $0
       Ontario – ONT                      $0              $79,328                $0             $0
       San Diego – SAN                    $0              $10,338                $0             $0
       San Francisco – SFO                $0             $1,011,920              $0         $1,353,786
       San Jose – SJC                     $0              $16,172                $0            N/A

       Total                             $0*             $1,377,185              $0         $3,119,026

         * Appendix A Rent was footnoted and not actually paid. Amount not available by airport. 

         * *Unable to verify. 

         Large Air Carrier Results – Rent Underpaid $1,377,185 LEO Underpaid $3,119,026 

         Total Underpayment $4,496,211 


                       LEO costing methodologies. To illustrate the complexities in determining air
                       carrier LEO costs, a large airport in California allocated all LEO costs to
                       maintenance and operations expenses--an off terminal site cost center. The
                       airport then added these costs with other cost centers such as airfield and
                       apron, and built these costs into landing fee rates. However, no direct nexus
                       existed between passenger and property screening costs and the landing fee
                       rate. While the air carriers at this airport did not report LEO costs to TSA, it is
                       reasonable to believe LEOs were frequently needed and used at passenger and
                       property screening areas. Another California airport used a double residual
                       methodology, where some LEO costs were factored into the air carriers’
                       terminal rates and another portion into their airfield rates.




                          Review of the TSA Collection of Aviation Security Service Fees


                                                    Page 48 

Appendix G
Results of Review at 13 National Airports - ASIF




                     To determine applicable Appendix A costs for the LEO expenses at national
                     airports, we spoke to airport officials and gathered documents relating to rates
                     and charges. Based on these meetings, airport records, and individual airport
                     methodologies, we reconstructed LEO costs for the three air carriers in our
                     sample. In all cases, we made subjective decisions for distributing rates and
                     charges based upon each airport’s billing practices and methodology. For
                     example, one airport in the Washington, D.C. area billed the air carriers for
                     LEO expenses based upon passenger enplanements. This airport established a
                     cost center totally dedicated to terminal security requirements that represented
                     35 percent of total airport security costs. Airport officials stated that the air
                     carriers should report 100 percent of this cost center on their Appendix A
                     submission. We applied the same methodology at this airport. We used LEO
                     costs identified by airport officials for the whole terminal and then factored
                     this amount against each air carriers’ passenger enplanement percentage.
                     While the air carriers could argue that LEOs perform many different duties in
                     the terminal, we concluded that this method of determining Appendix A LEO
                     costs resulted in an amount that should be considered in connection with the
                     screening of passengers and property. In addition, these airport officials did
                     not make any distinctions regarding LEO duties performed within a terminal.

                     Rent costing methodologies. Two examples of these differing methodologies
                     are presented below:

                         • 	 An airport in the Washington, D.C. area determined an air carrier’s
                             rent predicated on rentable terminal space consisting of areas available
                             for lease and common use premises. For all signatory air carrier space,
                             this airport factored in the use of the terminal space (exclusive use,
                             preferential use, joint use and common use space where the passenger
                             security checkpoints were located). Further, rental rates differed by
                             type of terminal space and an air carrier’s rent bill could include a
                             combination of costs in the above categories. The air carrier would
                             then need to decide what portion of their rent charges were directly
                             related to passenger and property screening.

                         • 	 A different airport in the Washington, D.C. area used an 80/20
                             methodology to charge rent. The airport directly billed all signatory air
                             carriers’ evenly for 20 percent of the terminal costs based on square
                             footage. The airport then charged the remaining 80 percent to all air
                             carriers based on enplaned passenger counts. At this airport, two of
                             three air carriers were signatory air carriers. Because 100 percent of




                        Review of the TSA Collection of Aviation Security Service Fees


                                                  Page 49 

Appendix G
Results of Review at 13 National Airports - ASIF


                             the space in the terminal did not relate exclusively to passenger and
                             property screening, for Appendix A purposes, air carriers needed to:
                             (1) determine the percentage of security checkpoint square feet to the
                             total terminal square feet, (2) apply this percentage to the airport’s rent
                             charges, and (3) determine the percentage of this amount applicable to
                             the Appendix A when numerous air carriers shared the security
                             checkpoint.




                        Review of the TSA Collection of Aviation Security Service Fees


                                                  Page 50 

Appendix H
Review of Costs Paid to Passenger and Property Screening Contractors During CY 2000




                     We could not independently determine a completely accurate Appendix A
                     amount for passenger and property screening contractors because of the
                     following limitations and issues.

                        • 	 The contractors’ accounting systems did not segregate passenger and
                            property screening costs from other non-passenger and property
                            screening costs provided to the air carriers during CY 2000
                            (e.g., skycap and wheelchair services).

                        • 	 The contractors could not provide us any data on the total dollar cost
                            the air carriers paid for passenger and property screening at the
                            airports across the nation. Because of this, we took a bottom-up
                            approach by necessity and piecemealed passenger and property
                            screening costs together as best we could under the circumstances. For
                            example, we started with contractor invoices or databases listing
                            invoices for the airports where we previously had received billing
                            information from the air carriers. We then reconciled the contractor
                            and air carrier data to determine the accuracy of what the air carriers
                            claimed supported their Appendix A submissions. In some cases, that
                            meant either adding or subtracting costs such as freight, taxes,
                            non-passenger and property screening services, etc. from contractor
                            invoices. We also used any other form of supporting documents that
                            showed billings from contractors or payments by air carriers.

                        • 	 The contractors no longer perform passenger and property screening
                            services, records were boxed up in different warehouses, and when
                            available, the 4-year old records were not categorized and filed in a
                            manner to easily identify costs for Appendix A purposes.

                        • 	 Two of the three air carriers in our review could not provide us
                            detailed cost summaries of passenger and property screening services
                            provided by contractors at each airport. We did receive some
                            contractor billing information at the air carriers and these costs were
                            compared against the contractor’s records when available.

                     We asked the first contractor to provide passenger and property screening cost
                     data for seven airports where the large air carrier operated. The contractor
                     lacked sufficient data at two airports for comparing contractor cost with air
                     carrier cost. For three other airports, either the contractor or the air carrier
                     lacked the documentation or sufficient information on the documents needed
                     to reconcile the amounts. For the two remaining airports, we reconciled 50
                     percent of the invoices for one airport and 65 percent for the other. Our

                        Review of the TSA Collection of Aviation Security Service Fees


                                                  Page 51 

Appendix H
Review of Costs Paid to Passenger and Property Screening Contractors During CY 2000


                     reconciliation showed that $346,080 in applicable contractor costs were not
                     included the air carrier’s records. Therefore, the large air carrier did not
                     include this amount in the Appendix A. Furthermore, the amount not included
                     in the Appendix A would likely have been greater if we could have reconciled
                     the remaining invoices and if we had access to cost documentation for the five
                     airports not reviewed.

                     Similar to the first contractor, $28,154 in the second contractor’s passenger
                     and property screening invoices could not be reconciled to the costs reported
                     in the Appendix A of the large air carrier. We reconciled invoices between the
                     small air carrier and the contractor and observed no discrepancies. However,
                     we could not compare the contractor’s invoices at the medium air carrier due
                     to insufficient detail.

                     The third contractor also had $105,983 in invoiced passenger and property
                     screening costs not identified in the Appendix A of the large air carrier. We
                     performed limited review work for the other two air carriers in our sample and
                     identified no underreported amounts.




                       Review of the TSA Collection of Aviation Security Service Fees


                                                 Page 52 

Appendix I
TSA Monitoring Procedures – Passenger Security Fees and ASIF


                    To monitor the collection of the passenger security fee and air carrier security
                    infrastructure fee payments, TSA program analysts use the following kinds of
                    tracking sheets.

                    1. 	 Universe data tracking sheet. This identifies information such as all
                         applicable air carriers’ monthly and year to date payments.

                    2. 	 Passenger fee non-payments listing. This identifies all air carriers who
                         have not paid passenger security fees and ASIF.

                    3. 	 Appendix A tracking sheet. This identifies all air carriers who did not file
                         an Appendix A and identifies which air carriers filed the appendix late.

                    4. 	 Issue tracking sheet. This details conversations held with various air
                         carriers regarding any program concerns.

                    5. 	 Payment sheet. This identifies whether air carrier payments are current
                         and identifies each air carrier balance to TSA.

                    6. 	 Air carrier payment schedule. This summarizes payment time frames,
                         dollars received and dollars due.

                    7. 	 Audit summary. This identifies the date that 125 air carriers received an
                         audit opinion on whether their Appendix A costs were fair and reasonable.




                       Review of the TSA Collection of Aviation Security Service Fees


                                                 Page 53 

Appendix J
Major Contributors to This Report




                     Robert J. Lastrico, Division Director
                     John A. Richards, Audit Manager
                     John E. Carnahan, Auditor
                     Helen K. Wong, Auditor




                        Review of the TSA Collection of Aviation Security Service Fees

                                                  Page 54
Appendix K
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Executive Secretariat
                      Chief of Staff
                      General Counsel
                      Under Secretary, Management
                      Undersecretary, Preparedness
                      Chief Financial Officer
                      Chief Information Officer
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Policy
                      Assistant Secretary for Legislative and Intergovernmental Affairs
                      Chief Security Officer
                      DHS GAO/OIG Audit Liaison

                      Transportation Security Administration

                      Assistant Secretary
                      TSA Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Bureau
                      DHS OIG Budget Examiner

                      Congress

                      Committee on Homeland Security and Governmental Affairs
                      United States Senate

                      Committee on Homeland Security
                      United States House of Representatives




                        Review of the TSA Collection of Aviation Security Service Fees


                                                  Page 55 

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.
